        REDACTED AND UNCLASSIFIED




FEDERAL BUREAU OF INVESTIGATION
    LEGAL ATTACHÉ PROGRAM

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 04-18
              March 2004




         REDACTED AND UNCLASSIFIED
                                                                REDACTED AND UNCLASSIFIED


                                                 FEDERAL BUREAU OF INVESTIGATION
                                                                            *
                                                     LEGAL ATTACHÉ PROGRAM

                                                                         EXECUTIVE SUMMARY

                The Federal Bureau of Investigation (FBI) operates offices known
          as Legal Attachés (Legats) in 46 locations around the world.1 Special
          agents assigned to these offices work with their counterparts in foreign
          countries to obtain information for the FBI on crimes and criminals that
          could harm U.S. citizens or interests. The globalization of crime and
          terrorism in recent years, as well as congressional expansion of the
          FBI’s extraterritorial authority, has resulted in a significant growth in
          the FBI’s overseas operations in the last decade.

                                                              GROWTH IN LEGAL ATTACHÉ OFFICES

                                                                                                   Number of Offices
                    60


                                                                                                                                                                                                         50
                    50
                                                                                                                                                                    45          46          46

                                                                                                                                                        41
                    40
                                                                                                                                            35
Number of Offices




                                                                                                                    32          32

                    30
                                                                                                        25
                                                                                22          22
                                                        19          20
                    20                      17
                                15


                    10



                     0
                           90




                                                               93




                                                                                                   96




                                                                                                                                                   00




                                                                                                                                                                                       03
                                       91




                                                                           94




                                                                                                               97



                                                                                                                           98




                                                                                                                                                               01
                                                   92




                                                                                       95




                                                                                                                                       99




                                                                                                                                                                           02




                                                                                                                                                                                                     d
                         19




                                                             19




                                                                                                 19




                                                                                                                                                 20




                                                                                                                                                                                     20
                                     19




                                                                         19




                                                                                                             19



                                                                                                                         19




                                                                                                                                                             20
                                                 19




                                                                                     19




                                                                                                                                     19




                                                                                                                                                                         20




                                                                                                                                                                                                  cte
                                                                                                                                                                                               oje
                                                                                                                                                                                             Pr




                                                                                                               Years


          _____________

                  1
                    During the data collection portion of our review, the FBI had 45 Legal Attaché offices
          abroad and a liaison office in Miami, Florida, which covered certain areas of Central America and
          the Caribbean. For purposes of this report, we included the Miami liaison office in the total of 46
          Legal Attaché offices. Effective October 1, 2003, the Miami liaison office was closed.
                * BECAUSE THIS REPORT CONTAINED INFORMATION CLASSIFIED AS “SECRET’ BY THE
          FEDERAL BUREAU OF INVESTIGATION, WE REDACTED (WHITED OUT) THAT INFORMATION
          FROM THE VERSION OF THE REPORT THAT IS BEING PUBLICLY RELEASED. WHERE SUCH
          INFORMATION WAS REDACTED IS NOTED IN THE REPORT.


                                                                               i
                                                                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

       The 46 Legat offices are staffed by 119 special agents and
75 support personnel. Most offices are staffed by a Legal Attaché, one
Assistant Legal Attaché, known as an ALAT, and one Office Assistant,
although a few of the larger offices have ten or more permanent staff.
Fiscal year 2003 expenditures for the Legal Attaché program totaled
$43.7 million, up from $27.6 million for fiscal year 1997, or an
increase of about 58 percent. Plans are under way to expand the FBI’s
overseas presence. Five new Legat offices and three sub-offices in
existing Legats are in the process of being opened or are under
consideration and additional staff have been added to other offices.

      The Office of International Operations (OIO) at FBI Headquarters
oversees the Legal Attaché program. OIO provides managerial
oversight as well as administrative and logistical support to Legal
Attaché offices and employees and their dependents. In addition, it
maintains contact with other federal agencies operating in the
international arena, INTERPOL, and foreign police and security officers
assigned to embassies (diplomatic missions) in the United States.2

       This audit examined the type of activities performed by Legal
Attaché offices, the effectiveness of the offices in establishing liaisons
with foreign law enforcement agencies and coordinating activities with
other U.S. law enforcement and intelligence agencies stationed
overseas, the criteria and process used by the FBI to determine the
placement of offices, the oversight and management of existing
offices, and the processes for selecting and training FBI personnel for
Legat positions. We reviewed Legat operations at FBI Headquarters in
Washington, D.C. and at Legal Attaché offices in Berlin, Germany;
Ottawa, Canada; Pretoria, South Africa; and Tokyo, Japan.

Legal Attaché Mission and Priorities

      The primary mission of Legal Attachés is to facilitate and support
FBI investigative interests in the overseas arena that pertain to threats
against the United States, its persons or interests. The Legal Attachés
establish, maintain, and enhance liaison with foreign law enforcement
agencies in order to accomplish this mission. By working cooperatively
with foreign police agencies, the Legal Attaché offices seek to build
_____________
       2
         INTERPOL — the International Criminal Police Organization, with
headquarters in Lyon, France facilitates cooperation among international police
authorities.



                                  ii
                       REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

networks that prevent crime or, alternatively, that ensure access to
the information the FBI needs to locate and extradite international
criminals and terrorists and obtain evidence for their prosecution.

      Legal Attaché staff may become directly involved in specific
investigations, but they have no law enforcement authority in foreign
countries. Thus, investigations are usually conducted jointly with
foreign law enforcement agencies in accordance with local laws and
procedures established by the host country. In addition, because
investigative activities could have a potential impact on the conduct of
U.S. foreign relations, these investigations must be coordinated with
the U.S. Department of State.

       Legal Attachés also are expected to coordinate their investigative
activities with other U.S. law enforcement and intelligence agencies,
such as the Drug Enforcement Administration (DEA) and the Central
Intelligence Agency (CIA), that operate in the same country or regions
to exchange information and to avoid duplication and overlap.

       In addition, Legal Attachés provide or arrange for training for
foreign police officials in locations such as the FBI National Academy in
Quantico, Virginia, and the International Law Enforcement Academy in
Budapest, Hungary. Programs offered at these two locations are
designed to strengthen ties between U.S. and foreign law enforcement
officials. For example, graduates of the National Academy have an
international alumni network and Legal Attachés are expected to
maintain close contact with the alumni in their territory.

      The investigative priorities of Legal Attaché offices mirror those
of the FBI as a whole. The FBI’s strategic plan identifies three
functional areas, or tiers, that prioritize the variety of threats it must
address.

      •   Tier One encompasses foreign intelligence, terrorist, and
          criminal activities that directly threaten the national or
          economic security of the United States.

      •   Tier Two encompasses crimes that affect the public safety or
          undermine the integrity of American society.

      •   Tier Three encompasses crimes that affect individuals and
          crimes against property.



                               iii
                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

Legal Attachés’ investigative efforts abroad cover all of these tiers, but
similar to the FBI as a whole since the terrorist attacks of
September 11, 2001, their number one priority is counterterrorism
investigations and activities.

Legal Attaché Offices Reviewed

       Although in a broad sense the mission of each Legat office is the
same, the specific activities of offices vary because of the differing
political and cultural settings and the nature of the criminal activity
that occurs in the countries or regions in which they operate. Thus, no
single Legat office can be considered typical. Consequently, we
selected Legats Ottawa, Berlin, Pretoria, and Tokyo in order to obtain a
cross section of offices, taking into consideration factors such as the
number of staff assigned, number of countries covered, geographic
location, workload, the nature of the criminal activity, and ongoing
terrorism-related work.

       The Legat office in Ottawa has responsibility for FBI liaison
matters in Canada, the second largest country in the world in terms of
land area. Legat Ottawa’s workload is the highest of all Legal Attaché
offices due primarily to the common, lengthy, and largely unguarded
border with the United States. The Legal Attaché office in Berlin has
responsibility for liaison matters in the Federal Republic of Germany.
Because one of the key terrorist cells responsible for the
September 11, 2001, attacks was located in Hamburg, a significant
portion of Legat Berlin’s workload involved the PENTTBOM
investigation.3 The Legat office in Pretoria, South Africa, has
responsibility for FBI liaison matters in 15 countries in southern Africa
and focuses on counterterrorism matters, organized crime, and
fugitive extraditions. Legat Tokyo has responsibility for liaison matters
in Japan and the Republic of China (Taiwan). Historically, organized
crime has been the top priority of the Tokyo Legat, but in recent years
the priority has been counterterrorism and counterintelligence.




_____________
      3
        PENTTBOM is the FBI’s term for its investigation of the Pentagon-World
Trade Center bombings on September 11, 2001.



                                 iv
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

Legal Attaché Office Workload

      A key function of the FBI’s Legal Attaché offices involves
handling requests for investigative assistance, referred to as
investigative leads, from FBI headquarters and field offices. These
requests range from simple tasks such as tracing telephone numbers
or obtaining copies of documents to more complex and time-
consuming activities such as tracking financial transactions, locating
suspected criminals and terrorists, or interviewing individuals as part
of an investigation.

      In recent years, the number of investigative leads handled by
Legats has grown significantly. In the 5-year period between fiscal
years 1998 and 2002, the number of leads rose from 20,267 to
53,105, an increase of about 162 percent. This increase is primarily
due to the growth of international crimes and terrorism, but also
because the number of Legat offices has grown. Overall, Legats
appear to have been able to handle the increasing workload. Legat
Ottawa, however, has a significant volume of pending leads — a
longstanding problem that the FBI has not addressed adequately.

      Legat Ottawa has a heavy workload and receives a large volume
of leads relative to other Legat offices because its proximity to the
United States results in it playing a substantial role in supporting many
FBI investigative matters. This heavy workload has resulted in a
backlog of pending leads; as of June 30, 2003, Legat Ottawa had
1,134 leads pending, the highest number of pending leads of any Legal
Attaché office.4 In contrast, the other Legat offices averaged 104
pending investigative leads as of the same date. Previous reviews
conducted of the Ottawa Legal Attaché office by the FBI’s Inspection
Division have reported that the office was having difficulty addressing
its heavy workload.

       The FBI has attempted to manage the workload in Ottawa
primarily through the use of short -term temporary duty (TDY) staff,
but the backlog of pending leads remains. In addition, the use of TDY
staff, in our opinion, does not appear to be an effective solution. Most
of the temporary personnel are assigned for 30 to 60 days. The high
turnover is disruptive to the operation because, for example, agents
often return to the United States before completing work on many of
_____________
      4
          As of December 31, 2003, Legat Ottawa had 1,335 pending leads.

                                  v
                       REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

their leads. In 2001, the FBI opened a sub-office in Vancouver and
has been approved to open another sub-office in Toronto. While these
sub-offices may help alleviate some of the workload in Ottawa, they
also are likely to generate additional work as new liaisons are
established. In FY 2002, an additional staff person was reallocated
from the Mexico City Legal Attaché office to Legat Ottawa and a
second staff person is expected to be added in FY 2004 for a total of
ten permanent positions. However, we are not optimistic the
increased staffing will be sufficient to reduce the backlog.

Controls Over Temporary Duty Travel

      By statute and Presidential Directive, the U.S. Ambassador has
responsibility for the actions of all U.S. government officials in the
country in which he or she is accredited. As part of carrying out this
responsibility, Department of State rules require that all U.S.
government employees obtain approval from the U.S. Ambassador
before traveling to a foreign country to conduct official business. This
approval is known as a country clearance. Legal Attachés are
responsible for keeping Ambassadors informed of all FBI employees
traveling to their countries, but we found that both Legat Ottawa’s and
Berlin’s records of country clearances were incomplete. In addition,
the failure of some FBI staff to obtain appropriate country clearances
has been a longstanding problem and, on at least two occasions since
2000, the FBI has issued memoranda to its employees emphasizing
the importance of obtaining country clearances. Our review of
travelers to Canada between October 2001 and April 2003 indicates
that the problem persists. The FBI could not locate country clearances
for 135, or 32 percent, of the 422 FBI employees who traveled to
Canada during that period. We also found that the FBI could not
locate country clearances for nine FBI staff who had traveled to
Germany.

Effectiveness of Liaison Activities

       Based on our interviews with officials from numerous law
enforcement and security agencies in Canada, Germany, Japan, and
South Africa, we concluded that the Legal Attachés in the se countries
were maintaining effective foreign liaisons. Most of the officials we
interviewed were complimentary of the Legal Attachés and the working
relationship that existed between their respective offices. Many
provided examples of how they persona lly, or their agencies in
general, had worked with the Legal Attaché staff to solve international
crimes. Officials in the two countries where English was not the
                              vi
                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

primary language — Japan and Germany — often noted how
impressed they were with the ability of Legal Attaché staff to
communicate fluently in the native language and emphasized the
positive impact this ability had on fostering a close working
relationship. In addition, many officials spoke highly of the training
provided or arranged by the Legal Attachés. The following examples
illustrate their points.

       •   Legat Ottawa’s primary liaison contacts in Canada are with
           the Royal Canadian Mounted Police (RCMP) and the Canadian
           Security Intelligence Service (CSIS). Officials from the
           RCMP, the national police force in Canada, told us they had a
           close working relationship with the Legat and his staff,
           especially since the BORDERBOM case and the September 11
           terrorist attacks.5 [CLASSIFIED INFORMATION REDACTED].

       •   Representatives from Legat Berlin’s primary liaison contacts
           in Germany — the Bundeskriminalamt (BKA), the
           [CLASSIFIED INFORMATION REDACTED], and the Berlin
           Landeskriminalamt (LKA) — were complimentary of the Legat
           staffs’ professionalism and responsiveness and emphasized
           appreciation for the FBI staffs’ language proficiency.

       •   Legat Pretoria’s primary law enforcement contact was the
           South African Police Service (SAPS), South Africa’s national
           law enforcement agency. Officials from SAPS’ Crime
           Intelligence Division told us they worked closely with the
           Legat and had conducted traces and compiled profiles on
           individuals, and performed telephone record checks.

           Officials from the National Central Bureau component of
           SAPS that maintain liaison with INTERPOL stated that they
           worked closely with the Legat office on extradition matters,
           shared information on criminals, and conducted criminal
           checks for the Legat. They commented that the Legat
           personnel were very professional, accessible, and responsive.


_____________
       5
         BORDERBOM was the term the FBI gave to its investigation of Ahmed
Ressam, the Algerian national who was arrested by U.S. authorities in Port Angeles,
Washington, in December 1999, while attempting to bring explosive materials into
the United States from Canada.

                                 vii
                      REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

      •   Japanese law enforcement and intelligence officials advised
          that they had frequent contact and worked closely with Legat
          Tokyo staff on law enforcement matters. Officials from the
          Public Security Investigative Agency, a component of the
          Ministry of Justice responsible for monitoring potentially
          dangerous domestic terrorist groups, [CLASSIFIED
          INFORMATION REDACTED]. Officials from the Japanese
          National Police Agency told us that the Legat and his staff
          had been very helpful and responsive in providing needed
          information on the activities of Yakusa, a Ja panese organized
          crime group, in the United States. Officials from both
          agencies were highly complimentary of the Legat and the
          ALAT’s proficiency in Japanese.

       Not all the comments from foreign officials were positive,
however. Some German and Canadian officials we interviewed were
critical of the FBI’s heavy use of temporary duty personnel. For
example, the head of the BKA’s Terrorism Division told us that in
contrast to other foreign law enforcement agencies, [CLASSIFIED
INFORMATION REDACTED]. Similarly, CSIS officials in Canada pointed
out that the Legat appeared to be short -handed and, as a result, often
relied on temporary FBI personnel to fill in the gaps. They added that
reliance on TDY staff inhibited the establishment of long-term
relationships that they believed were especially important in the
intelligence business. Thus, they were not as comfortable sharing
information with FBI personnel on temporary duty and with whom they
had not developed such a relationship.

       One difference between Legat Ottawa and the other Legats we
visited is that, because of Canada’s proximity to the United States, FBI
field offices near the border have for many years worked closely with
Canadian police agencies. This creates a potential for problems if the
Legat, who is responsible for all FBI activities in Canada, is not kept
apprised of what the FBI domestic field offices are doing.

      The Chief of the Toronto Police Service told us that over the
years he had developed a strong working relationship with the FBI’s
Buffalo, New York, field office and, consequently, preferred to deal
with agents from that office rather than the Legat staff in Ottawa. The
Legat told us that in the past the Buffalo field office had nominated
Toronto law enforcement officials to participate in FBI National
Academy training programs without his input or concurrence. The
Buffalo field office, however, sought his input after he raised that
concern. Nevertheless, the Legat said he still believed he was, in
                              viii
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

effect, competing against the Buffalo field office in providing training
slots at the FBI National Academy for Canadian law enforcement
officials. FBI Headquarters officials told us that the recent
establishment of a Border Liaison Officer in the Buffalo field office is
designed to ens ure that appropriate coordination occurs between
Buffalo and Legat Ottawa.

       Determining whether the Buffalo field office appropriately
coordinated its contacts in Canada with the Legat was beyond the
scope of our review. However, the police chief’s comments raise a
concern. In our opinion, the role of the Legat could be diluted if
Buffalo field office personnel are not coordinating their activities in
Canada with the Legat. Further, if the Toronto sub-office is ultimately
opened, the FBI could be perceived by Canadian authorities as being
disjointed if both the Legat sub-office and Buffalo staff are meeting
with the same Canadian authorities and not coordinating their efforts.
In addition, other FBI field offices near the Canadian border may have
similar contacts with their Canadian counterparts, all of which, in our
opinion, should be coordinated with Legat Ottawa.

Coordination with Other U.S. Agencies Overseas

       Legal Attaché personnel are considered part of the U.S. Embassy
staff, and the Legal Attaché office is physically located on the premises
of a U.S. Embassy. As part of their duties, FBI Legal Attachés often
need to interact with Ambassadors and their staff, as well as with
representatives of other U.S. law enforcement and intelligence
agencies that station personnel abroad. Besides FBI Legal Attaché
staff, an embassy may have law enforcement representatives from
agencies such as the DEA; the Bureau of Alcohol, Tobacco, Firearms
and Explosives; the Secret Service; and Immigration and Customs
Enforcement. [CLASSIFIED INFORMATION REDACTED].

       Overlapping interests and jurisdictions among these agencies
could be harmful to U.S. interests and run the risk of antagonizing the
host government. Moreover, a lack of coordination among law
enforcement agencies abroad could be detrimental to the ability of the
United States to effectively combat international crime and terrorism.
To avoid such problems, statutes as well as agreements between
agencies typically delineate their responsibilities overseas, and U.S.
Ambassadors are responsible for ensuring that overall law enforcement
activities are coordinated. In addition, the FBI’s Legal Attaché Manual
emphasizes the importance of maintaining effective liaisons with other
U.S. law enforcement and intelligence agencies abroad.
                               ix
                    REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


       In the four countries where we reviewed Legat operations, the
Ambassadors, their staff, and representatives from selected U.S. law
enforcement and intelligence agencies uniformly described their
interactions with the Legal Attaché offices as positive. The consensus
among the officials we interviewed was that Legat personnel in these
four countries readily collaborated and shared information on law
enforcement matters. Law enforcement representatives told us that
especially since the terrorist attacks on September 11, 2001, they
were working closer with their counterparts in the embassies than ever
before. Some pointed out that even before September 11 the rivalries
that based on their experiences seemed common among law
enforcement agencies in the United States appeared much less
prevalent in an embassy setting. None of the U.S. law enforcement
officials we spoke with expressed concerns about duplication of effort
between Legat activities and their agencies’ activities.

FBI Oversight of Legal Attaché Program

       Based on our review, we found that the FBI periodically assesses
the need for offices abroad and adequately justifies the opening of new
Legal Attaché offices and expanding existing Legat offices. The FBI’s
assessments consider factors such as specific terrorist and criminal
activity in a country or region that threatens the United States,
commitment of the host country to cooperate with the FBI, analysis of
workloads in existing offices, and the availability of funding.
Assessments of the location and composition of Legat offices are an
ongoing and normal part of headquarters’ oversight of the Legat
program. These assessments have resulted in the opening of new
offices in areas previously covered by existing offices, adding staff to
existing offices to address the workload, and consolidating offices
when the workload no longer justified keeping an office open.

       Periodically, Congress has asked the FBI to provide justifications
for existing and planned Legal Attaché offices. We reviewed reports
that were provided to Congress in 1999 and 2003 and found them to
be comprehensive and, for the four Legats we reviewed, consistent
with what we found when we reviewed these offices. For example, the
2003 report concluded that the staffing levels in Legats Pretoria and
Tokyo were adequate for the workload. In contrast, the heavy use of
temporary duty personnel in Legats Berlin and Ottawa was expensive
and did not provide needed continuity in more complex investigations.
Thus, the report proposed increasing the permanent staff at both
locations to better cope with the workload.
                              x
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


       The FBI uses various methods to monitor and oversee Legat
offices. For example, each Legal Attaché office is required to prepare
and submit a Legal Attaché Annual Accomplishment Report (LAR). The
LAR reports provide detailed information about the office’s operations
and accomplishments. To better keep abreast of Legats’ workload,
OIO recently began analyzing each Legat office’s pending leads on a
quarterly basis. The results of the analysis are provided to the
applicable Legat office and problems identified must be explained or
resolved.

      OIO officials told us they maintain regular telephone and e-mail
contact with Legat offices. OIO managers also meet regularly to
discuss significant issues or problems pertaining to Legat offices. They
obtain feedback on Legat offices from Ambassadors and domestic and
foreign law enforcement and intelligence personnel visiting FBI
Headquarters. In addition, OIO hosts an annual conference in
Washington, D.C., attended by all the Legal Attachés, to discuss
relevant topics, including Legat performance expectations.

       The FBI’s Inspection Division conducts in-depth reviews of the
activities of individual Legal Attaché offices, normally on a 3-year
cycle. The inspections include a review of management issues,
staffing, administration, liaisons, workload, and training matters. The
reports comment on the effectiveness and efficiency of the Legal
Attachés. We followed up on 26 of the 31 findings from the latest
Inspection Division reviews of Legats Ottawa, Berlin, Pretoria, and
Tokyo. We concluded that the FBI had taken appropriate corrective
action for most of the findings, with the exception of a finding related
to the staffing problems in Ottawa. In addition, documentation was
lacking that corrective action had been taken related to changing safe
combinations in Ottawa and conducting unannounced cash counts of
the imprest fund in Tokyo.

       OIO managers told us that they made site visits to the Legal
Attaché offices to review operations. However, these reviews were
conducted sporadically. We found documentation supporting OIO site
visits for only two of the four offices we visited. OIO officials
acknowledged that site visits needed to be conducted more
systematically and said they were developing a plan to review offices
on a regular basis starting in FY 2004.




                              xi
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Legat Selection and Training

      According to OIO officials, the FBI seeks candidates for Legat
and ALAT positions who have broad knowledge of FBI programs and
who are skilled supervisors. Among other things, the individuals
should possess sound judgment and common sense and require
minimal guidance and direction from FBI Headquarters. In addition,
these individuals should be proficient in one or more languages used in
an office’s assigned territory.

       Applicants for Legat openings are ranked by a Legat Screening
Panel (LSP) consisting of FBI senior managers and analysts against the
qualifications contained in the vacancy announcement. The top-
ranked candidates are referred to a second panel, known as the
Special Agent Mid-Level Management Selection (SAMMS) Board. The
SAMMS Board may agree with the LSP rankings or come up with its
own ranking based on a review of the candidates. The SAMMS Board
recommends to the FBI Director the top three candidates in rank
order. The FBI Director interviews one or more of the Legat or ALAT
candidates and makes the final selection. We reviewed the files for 13
recent Legat and ALAT vacancy announcements and concluded that
the FBI was following its procedures.

      FBI officials told us that in the past when the Legat program was
growing rapidly, some individuals who did not have sufficient
management or supervisory experience were select ed for Legat
positions. Officials believed that the current selection process, which
places considerable weight on supervisory experience, should help
avoid some of the problems that occurred in the past. Nevertheless,
misconduct by some Legat employees is a concern. An FBI Office of
Professional Responsibility (OPR) official remarked that, in his opinion,
the number of OPR investigations of Legat personnel was higher than
would be expected given their small number and attributed this
problem to past staffing decisions. This official added that Legat staff
represent the FBI overseas and should be role models rather than
subjects of OPR investigations. OPR officials identified 13 staff against
whom 12 investigations were initiated during the 3-year period




                              xii
                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

between September 1999 and September 2002.6 Our review of the
files on these investigations, which included allegations of voucher
fraud, misuse of position, and security violations, revealed that they
resulted in five suspensions, three letters of cens ure, two counseling,
one dismissal, and one resignation.

       The FBI Director has commented that he wants future top
managers in the FBI to have international experience. In our
discussions with officials and employees in FBI Headquarters and the
four Legat offices we reviewed, many said that historically Legat
positions were not considered career enhancing. This perception
appears to be changing, as more agents are being sent overseas to
work on major investigations and gain first-hand experience about the
nature of a Legat’s work. In FY 2003, according to OIO officials,
40 returning Legat staff were promoted — a significantly higher
number than had occurred in the past.

       Because the FBI’s Inspection Division was conducting a detailed
review of the pre-deployment training program for newly selected
Legat staff concurrent with our audit, we limited our work in this area.
We asked selected Legat staff at the four offices we reviewed about
the training they had received in preparation for their assignment and
in general they had positive comments about this training. These
views were in contrast to what the FBI Inspection Division was told by
a focus group of both former and current Legat staff as reported in its
July 2003 report on the pre-deployment training program. 7 Focus
group participants expressed dissatisfaction with briefings they had
received as part of the training from headquarters operational
divisions. The focus group participants also indicated that they did not
believe the pre-deployment training program adequately prepared
newly selected Legat staff for the difficulties of adjusting to life
overseas. Other issues noted in the FBI’s Inspection report included
that funding for the pre-deployment training was insufficient and
_____________
       6
          Subsequent to our exit conference another OPR official provided us with a
list of 17 additional cases that had been opened on 15 Legat personnel during our
review period. In addition, the OIG Investigations Division, which also can
investigate allegations against FBI personnel, provided us with allegations against
two more Legat personnel. We did not review the case files for these additional
cases.

       7
         FBI Inspection Division Report: Legal Attaché Pre-deployment Training: An
Evaluation of the Preparation of FBI Personnel for Overseas Assignment,
Reengineering Project Number 35, July 2003.

                                  xiii
                       REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

training facilities were inadequate. The FBI’s Inspection Division made
12 recommendations to improve pre-deployment training for Legat
staff.

        Based on our observations in Legat Tokyo, language proficiency
is critical in fostering close relationships with foreign liaisons.
According to a Language Services Section official, employees selected
for Legat positions typically have about 3 months to work on language
training before they are transferred to a Legat office. In our opinion,
three months is not sufficient time to learn a foreign language, a view
echoed in the FBI Inspection Division’s July 2003 report. Our analysis
of the language skills of the 97 FBI staff stationed in countries where
English is not the primary or secondary language revealed that 22 of
the staff, or about 23 percent, had no language skill applicable to the
host country or the territory covered by the Legat office. In addition,
14 agents had some language skills pertaining to that area, but did not
meet the oral language goals as stated in the FBI’s Legal Attaché
Manual. In total, 36, or over one-third, of the 97 Legat staff assigned
to these countries did not meet the FBI’s language goals.

Tours of Duty

       To ensure that FBI personnel do not lose contact and familiarity
with the changing practices and priorities of the FBI, as well as
concerns that extended tours of duty abroad could result in a security
risk, the FBI places limits on the length of time staff can remain
abroad. FBI personnel are limited to no more than five consecutive
years abroad in one location or six consecutive years in two locations,
although exceptions to these limits are permitted when necessary to
meet the needs of the FBI. Further, according to an OIO official, prior
to 1997, no tour of duty limits existed for support staff.

       Our analysis found that some Legat staff have remained abroad
for long periods of time. We examined the tours of duty for 370 FBI
agents and support personnel assigned to Legat offices since
October 1, 1996. Our analysis indicates 21 FBI employees had
remained overseas for more than 6 consecutive years. An additional
eight Legat staff will be overseas for more than 6 years if they
complete their current tours of duty.




                              xiv
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Conclusions and Recommendations

      Increasingly, crimes and terrorist acts that occur abroad impact
the United States and its citizens, and the FBI’s Legal Attaché program
plays a key role in detecting, deterring, and investigating these crimes.
Based on our review and first-hand observations at four Legat offices,
we believe that the Legat program in general and the four offices we
reviewed in particular make a significant contribution in these efforts.

       The many law enforcement and intelligence officials we spoke
with in these countries gave the Legats high marks for fostering strong
relationships. In addition, Legats appeared to coordinate effectively
with their U.S. law enforcement counterparts stationed in U.S.
embassies and were highly regarded by all four U.S. Ambassadors.

       There has been a significant increase in the number of leads
directed to Legat offices in the past five years. While most Legat
offices have been able to cope with the workload, Legat Ottawa has
consistently had a high volume of pending leads. The FBI’s efforts to
alleviate this problem, primarily through temporary duty staff, has had
marginal success. In addition, our review of FBI personnel traveling to
Canada on temporary duty assignments indicated that stronger
controls are needed to ensure that required country clearances are
obtained and complete records of these clearances are maintained.

       Based on our review, the FBI’s process for assessing the need
for new Legat offices and realigning or closing existing offices appears
adequate. The FBI also monitors the offices’ operations and activities
and is taking steps to strengthen this oversight. In addition, the FBI
has a reasonable process in place for selecting agents for Legat
positions. But both the FBI Inspection Division and our review indicate
that improvements are needed in the training program for newly
selected Legat staff. We noted that over one-third of Legat staff did
not meet the FBI’s foreign language proficiency goals as stated in the
Legal Attaché Manual. Finally, we found that some Legat staff have
remained abroad for long periods of time. While extensions to tour of
duty limits may sometimes be necessary, we believe these extensions
should be kept to a minimum.




                              xv
                   REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

     Based on the issues identified in this report, we offer six
recommendations to improve the operation of the Legal Attaché
program. Among the recommendations are that the FBI should:

     •   Analyze the staffing level and workload in Legat Ottawa to
         determine if additional permanent resources are needed to
         resolve the backlog of pending leads.

     •   Strengthen controls to ensure that country clearances are
         obtained, develop a system to ensure that complete records
         of these clearances are maintained, and direct the Inspection
         Division to review compliance with country clearance
         requirements during its inspections.

     •   Implement the FBI Inspection Division’s 12 recommendations
         contained in their July 2003 report on pre-deployment
         training for Legat staff.

     •   Require adherence to the FBI’s limits on overseas tours of
         duty and keep tour-of-duty extensions to a minimum.




                             xvi
                  REDACTED AND UNCLASSIFIED
              REDACTED AND UNCLASSIFIED


        FEDERAL BUREAU OF INVESTIGATION
            LEGAL ATTACHÉ PROGRAM

                   TABLE OF CONTENTS

CHAPTER 1:   INTRODUCTION .................................................1
             History of the Legal Attaché Program.....................1
             The Legal Attaché Program Today .........................2
             Legal Attaché Staff .............................................6
             FBI and Legal Attaché Priorities ............................7
             Activities of Legal Attachés ..................................8
             Audit Approach ................................................ 10

CHAPTER 2:   LEGAT OFFICE AND COUNTRY INFORMATION........ 12
             Legat Ottawa................................................... 12
             Legat Berlin..................................................... 14
             Legat Pretoria.................................................. 16
             Legat Tokyo .................................................... 19

CHAPTER 3:   LEGAT INVESTIGATIVE ACTIVITIES ..................... 23
             Legats’ Process for Responding to
             Investigative Leads .......................................... 23
             Legats Have Coped With Sizeable Rise in Leads ..... 25
             Review of Pending Leads at Four Offices............... 27
             Backlog of Pending Leads in Ottawa..................... 29
             Ottawa Backlog Previously Reported by
             FBI Inspection Division...................................... 32
             Actions Taken by FBI Have Yet to
             Fully Address the Backlog .................................. 32
             Controls Over Temporary Duty Travel
             Need Improvement........................................... 33
             Conclusions..................................................... 37
             Recommendations ............................................ 38

CHAPTER 4:   LIAISON ACTIVITIES WERE EFFECTIVE AT
             THE LEGAL ATTACHÉ OFFICES REVIEWED ............ 39
             Details of Liaison Activity and Accomplishments
             by Office......................................................... 39
             Conclusion ...................................................... 51
             Recommendation ............................................. 53




              REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED



CHAPTER 5:      LEGAL ATTACHÉ OFFICES COORDINATE
                ACTIVITIES WITH OTHER U.S. LAW ENFORCEMENT
                AGENCIES OVERSEAS....................................... 54
                U.S. Law Enforcement Presence in American
                Embassies....................................................... 54
                Overlapping Jurisdictions Create a Potential
                for Conflict ..................................................... 55
                The Role of the U.S. Ambassador ........................ 56
                Legal Attachés Coordinate and Collaborate
                With Other U.S. Law Enforcement Representatives. 56
                Conclusion ...................................................... 60

CHAPTER 6:      FBI OVERSIGHT OF THE LEGAL ATTACHÉ PROGRAM
                APPEARS ADEQUATE......................................... 61
                FBI Justification for Establishing and
                Maintaining Offices ........................................... 61
                Oversight of Offices .......................................... 63
                Conclusion ...................................................... 66

CHAPTER 7:      SELECTION AND TRAINING OF
                LEGAL ATTACHÉ STAFF ..................................... 67
                Process for Selecting Candidates for
                Legat Positions ................................................ 67
                FBI Acknowledged Some Past Staffing Decisions
                Could Have Been Better .................................... 69
                Misconduct by Some Legat Staff is a Concern ........ 70
                Increasing Recognition of the Value of
                Legat Experience.............................................. 72
                Pre-Deployment and Foreign Language Training for
                Legat Staff...................................................... 73
                Some Legat Staff Remain Abroad For Long
                Periods of Time ................................................ 78
                Conclusion ...................................................... 79
                Recommendations ............................................ 81

STATEMENT ON MANAGEMENT CONTROLS .................................. 82

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 83

APPENDIX I:     AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY .. 84

APPENDIX II:    LISTING OF FOREIGN AGENCIES CONTACTED ....... 87


                 REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED


APPENDIX III:   LISTING OF U.S. AGENCIES CONTACTED AT
                U.S. EMBASSIES AND CONSULATES .................... 89

APPENDIX IV:    FBI LEGAL ATTACHÉ OFFICES AND SUB-OFFICES
                FISCAL YEAR 2003 STAFFING LEVELS .................. 90

APPENDIX V:     RECOMMENDATIONS FROM THE FBI INSPECTION
                DIVISON REPORT ON LEGAL ATTACHÉ
                PRE-DEPLOYMENT TRAINING.............................. 92

APPENDIX VI:    FEDERAL BUREAU OF INVESTIGATION RESPONSE.. 94

APPENDIX VII:   OFFICE OF THE INSPECTOR GENERAL,
                AUDIT DIVISION ANALYSIS AND SUMMARY OF
                ACTIONS NECESSARY TO CLOSE THE REPORT..... 103




                 REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

CHAPTER 1: INTRODUCTION

       The Federal Bureau of Investigation (FBI) serves as the principal
investigative agency of the federal government, responsible for
investigating crimes against the United States and performing other
duties connected with national security. FBI headquarters in
Washington D.C. provides program direction and support to 56 field
offices, approximately 400 satellite offices known as resident agencies,
and 4 specialized field installations.

       Although the FBI is a domestic law enforcement agency, it has
stationed special agents abroad for many years in foreign posts known
as Legal Attaché (Legat) offices. Special agents assigned to 46 Legal
Attaché offices and 5 sub-offices abroad work with their police
counterparts in foreign countries to obtain information for the FBI on
crimes and criminals that could harm U.S. citizens or interests.8 The
globalization of crime and terrorism in recent years has resulted in a
significant expansion in the FBI’s overseas operations. Fiscal year
2003 expenditures for the Legal Attaché program totaled $43.7
million, up from $27.6 million for fiscal year 1997, or an increase of
about 58 percent.

History of the Legal Attaché Program

       The FBI began assigning agents abroad during World War II.
These agents were assigned initially to Central and South America to
monitor activities of German agents operating in the area as well as
individuals and organizations in the large German émigré community
believed to be loyal to the Nazi regime. By the end of World War II,
agents also were posted to American embassies in Europe and Asia.
In subsequent years, the FBI opened and closed offices abroad
depending on factors such as political conditions, changing criminal
priorities, and FBI finances. In 1953, there were 6 Legat offices; this
rose to 12 by 1968. By 1971, the number had increased to 17 offices
and the justifications for the increase included a general rise in
terrorism and airline hijackings, growing numbers of deserters and
draft resisters overseas, and increases in drug trafficking.

_____________
       8
          At the time of our review, the FBI had 45 Legal Attaché offices abroad and a
liaison office in Miami, Florida, which covered certain areas of Central America and
the Caribbean. For purposes of this report, we included the Miami liaison office in
the total of Legal Attaché offices. According to FBI officials, the Miami liaison office
was closed effective October 1, 2003.



                      REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

       The number of Legat offices continued to rise during the 1980s
and 1990s, spurred by the increasing globalization of crime. For
example, the end of the Cold War and the collapse of Communist
regimes opened borders and created a flood of organized criminal
activity in those countries and the United States. Likewise, the
increasing flow and speed of international bank transfers, a liquid
world-wide financial market, and loosened restrictions on the export of
capital allowed large sums of money to be moved and concealed with
ease by drug traffickers and white collar criminals. By 1996, the FBI
had 25 offices abroad. Since then, the number has doubled due in
part to the threat of international terrorism directed against the United
States.

      The increasing FBI presence overseas in the last two decades
has also been fostered by changes in statutory authority. Historically,
the FBI’s criminal jurisdiction was largely limited to domestic
investigations and activities. The United States rarely asserted
criminal jurisdiction beyond its borders and, consequently, most
criminal behavior that occurred outside the country could not be
prosecuted in U.S. courts. In response to the rise in international
crime and terrorism, however, Congress, through express statutory
language, has extended federal jurisdiction “extraterritorially” to
protect U.S. citizens and interests abroad. According to a 1996 FBI
report entitled The FBI’s Presence Overseas: The Need for FBI Agents
Abroad to Better Protect the United States From International Crime
and Terrorism, federal law covered nearly 50 types of offenses that
could have an overseas element, double the number of crimes that
existed before 1980.

The Legal Attaché Program Today

       The map in Exhibit 1-1 and the table in Exhibit 1-2 show the
locations of the 46 Legal Attaché offices open as of September 30,
2003, the year they were opened, and the geographic areas and
countries they cover. As the map also details, this geographic
coverage extends to all countries in the world with the exception of
Cuba, Iran, Libya, and North Korea—countries with which the United
States has no formal diplomatic relations. In addition, FBI agents from
the FBI’s Counterterrorism Division are currently on temporary duty in
Iraq, but these agents are not part of the Legat program. Almost two-
thirds of the Legat offices have opened since 1990. In order to open a
new Legat office or modify staffing levels in existing offices, the FBI
must obtain Department of Justice, Department of State, Office of
Management and Budget, and Congressional approval.

                              2
                  REDACTED AND UNCLASSIFIED
                                                                  REDACTED AND UNCLASSIFIED

                                                                    EXHIBIT 1-1
                                                       LOCATION OF FBI LEGAL ATTACHÉ OFFICES

                                                                                          WARSAW                           BUCHAREST
                                                                                                       PRAGUE
                                                                                          BERLIN              TALLINN

                                                                                 COPENHAGEN
                                                                               BRUSSELS


                                                                        LONDON
                                                                                                                  MOSCOW

                                   OTTAWA                                   PARIS                             KIEV
                                                                     BERN
                                                                                                                                          ALMATY
                                                                      VIENNA
                                                                    MADRID
                                                                                                              ANKARA                                                       BEIJING
                                                                                                                                                                                                   TOKYO
                                                                                              ROME
                                                                                                     ATHENS                                                                          SEOUL


                               MIAMI                                                                     CAIRO

                                                                                                                        RIYADH
                                                                                                                                                   NEW DELHI
                                       SANTO DOMINGO                                                                                                                                 HONG KONG
                                                                                                                                      TEL AVIV
                                                                                                                                                                                         MANILA
MEXICO CITY                    CARACAS                                                                                                                     BANGKOK
                                              BRIDGETOWN                                                                          AMMAN

              PANAMA CITY
                                                                                                                                          ISLAMABAD
                  BOGOTA
                                                                                 LAGOS
                                                                                                                                                               SINGAPORE


                                                                                                                        NAIROBI


                                                       BRASILIA




                            SANTIAGO


                                                                                                                PRETORIA                                                                          CANBERRA




                                                 BUENOS AIRES




                                                                              3
                                                                  REDACTED AND UNCLASSIFIED
                                                           REDACTED AND UNCLASSIFIED

                                                               EXHIBIT 1-2
                                           LISTING OF FBI LEGAL ATTACHÉ OFFICES, YEAR OPENED,
                                                         AND COUNTRIES COVERED
                                                  9
  Legal Attaché Office                Date Opened                                 Countries
Almaty, Kazakhstan                          2000              Kazakhstan, Kyrgyzstan, Tajikistan, Turkmenistan, Uzbekistan
Amman, Jordan                               2001              Jordan
Ankara, Turkey                              2000              Armenia, Azerbaijan, Georgia, Turkey
Athens, Greece                              1993              Albania, Bulgaria, Cyprus, Greece, Lebanon, Macedonia, Syria
Bangkok, Thailand                           1990              Burma, Cambodia, Laos, Thailand, Vietnam
Beijing, China                              2002              Mongolia, Peoples Republic of China
Bern, Switzerland                         Pre-1970            Liechtenstein, Switzerland
Berlin, Germany                            199810             Germany
Bogotá, Colombia                          Pre-1970            Colombia, Ecuador
Brasilia, Brazil                            1999              Brazil
                                                              Anguilla, Antigua and Barbuda, Barbados, Dominica, French West Indies, Grenada,
                                                              Guadeloupe (Islands of St. Barthelemy and French St. Martin), Martinique, Montserrat,
Bridgetown, Barbados                         1988             Netherlands Antilles (Islands of Saba, St. Eustatius, and Dutch St. Maarten), St.
                                                              Christopher, St. Kitts/St. Nevis (British West Indies), St. Lucia, St. Vincent and the
                                                              Grenadines, Trinidad and Tobago
Brussels, Belgium                            1989             Belgium, Luxembourg, The Netherlands
Bucharest, Romania                           2001             Moldova, Romania
Buenos Aires, Argentina                      1997             Argentina, Paraguay, Uruguay
Cairo, Egypt                                 1996             Djibouti, Egypt, Eritrea, Ethiopia, Somalia, Sudan
                                                              Australia, Christmas Island, Cook Islands, Fiji, French Polynesia (includes Austral Islands,
                                                              Bora Bora, Marquesas Islands, Moorea, Society Islands, Tahiti), Kiribati (includes Canton,
Canberra, Australia                       Pre-1970            Caroline, Flint, Gilbert Islands, Malden, Phoenix, Starbuch, Vosttok), Nauru, New Caledonia,
                                                              Papua New Guinea, New Zealand, Niue, Pitcairn Island, Solomon Islands, Tokelau, Tonga,
                                                              Tuvalu, Vanuatu, Wallis and Futuna Islands (French), Samoa
                                                              Aruba, French Guiana, Guyana, Netherlands Antilles (islands of Bonaire and Curacao),
Caracas, Venezuela                           1992
                                                              Suriname, Venezuela
Copenhagen, Denmark                         1999              Denmark, Greenland, Finland, Iceland, Norway, Sweden
Hong Kong, SAR, China                     Pre-1970            Hong Kong, Macau
Islamabad, Pakistan                         1996              Afghanistan, Pakistan
Kiev, Ukraine                               1997              Belarus, Ukraine

    _____________
            9
                The year opened for most pre-1970 offices was not readily available.
            10
                 Before 1998, the Legat in Germany was located in the city of Bonn.




                                                                       4
                                                           REDACTED AND UNCLASSIFIED
                                                 REDACTED AND UNCLASSIFIED

  Legal Attaché Office          Date Opened 9                                            Countries
Lagos, Nigeria                      1999          Gambia, Ghana, Liberia, Nigeria, Sierra Leone
                                                  United Kingdom (England, Scotland, Wales, Northern Ireland), Republic of Ireland, Channel
London, England                    Pre-1970
                                                  Islands (Jersey, Guernsey)
Madrid, Spain                        1991         Andorra, Cape Verde, Equatorial Guinea, Gibraltar, Portugal, Spain
Manila, Philippines                  1988         Philippines
Mexico City, Mexico                Pre-1970       Mexico
Miami, United States (Liaison                     Bahamas, Belize, Bermuda, Cayman Islands, Costa Rica, El Salvador, Guatemala,
                                Not Determined
Office)                                           Honduras, Jamaica, Nicaragua, Turks and Caicos Islands, Haiti
Moscow, Russia                       1994         Russia
Nairobi, Kenya                       2001         Kenya, Tanzania, Uganda
New Delhi, India                     2000         Bangladesh, Bhutan, India, Maldives, Nepal, Sri Lanka
Ottawa, Canada                       1942         Canada
Panama City, Panama                Pre-1970       Panama
                                                  Algeria, Benin, Burkina, Faso, Burundi, Cameroon, Central African Republic, Chad, Republic
                                                  of Congo, France, Gabon, Guinea, Guinea-Bissau, Cote d’Ivoire (aka Ivory Coast), Mali,
Paris, France                      Pre-1970
                                                  Mauritania, Monaco, Morocco, Niger, Rwanda, Senegal, Togo, Tunisia, Western Sahara,
                                                  Democratic Republic of Congo, Zaire
Prague, Czech Republic              2000          Czech Republic, Slovakia
                                                  Angola, Botswana, Comoros, Diego Garcia (British Indian Ocean Territory), Lesotho,
Pretoria, South Africa              1997          Madagascar, Malawi, Mauritius, Mozambique, Namibia, South Africa, Seychelles, Swaziland,
                                                  Zimbabwe, Zambia
Riyadh, Saudi Arabia                 1997         Bahrain, Kuwait, Oman, Qatar, Saudi Arabia, U.A.E., Yemen
Rome, Italy                        Pre-1970       Italy, Malta
Santiago, Chile                      1994         Bolivia, Chile, Peru
Santo Domingo, Dominican
                                    2001          Dominican Republic
Republic
Seoul, South Korea                  2000          South Korea
Singapore, Singapore                2000          Brunei, East Timor, Indonesia, Malaysia, Singapore
Tallinn, Estonia                    1997          Estonia, Latvia, Lithuania
Tel Aviv, Israel                    1996          Israel
Tokyo, Japan                        1954          Japan, Taiwan
                                                  Austria, Bosnia, Croatia, Herzegovina, Hungary, Slovenia, Yugoslavian Republic (Serbia and
Vienna, Austria                     1992
                                                  Montenegro)
Warsaw, Poland                      1997          Poland

                                                       EXHIBIT 1-2 CONTINUED




                                                             5
                                                 REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       Plans are underway to expand the FBI’s overseas presence. Five
new offices are in the process of being opened in Georgia, Malaysia,
Morocco, the United Arab Emirates, and Yemen. In addition, the FBI
has received congressional approval to establish three sub-offices in
existing Legats in Bonn, Germany (Legat Berlin); Milan, Italy (Legat
Rome); and Toronto, Canada (Legat Ottawa). Finally, the FBI has
augmented staff to the Legats in Amman, Jordan; Islamabad,
Pakistan; Manila, Philippines; Ottawa, Canada; Riyadh, Saudi Arabia;
and Cairo, Egypt.

      The Office of International Operations (OIO) at FBI Headquarters
oversees the Legal Attaché program. OIO provides managerial
oversight as well as administrative and logistical support to Legal
Attaché offices, employees, and their dependents. In addition, it
maintains contact with other federal agencies operating in the
international arena, INTERPOL, and foreign police and security officers
assigned to embassies (diplomatic missions) in the United States.11

Legal Attaché Staff

       The title “Legal Attaché” was established by the Department of
State for the special agent designated to be in charge of an FBI liaison
office abroad. These agents are typically senior managers with many
years of experience in handling criminal investigations. Additional
agents assigned to the office are generally referred to as Assistant
Legal Attachés, or ALATs. Office Assistants provide administrative
support. The typical office has a Legal Attaché, one ALAT, and one
Office Assistant although some of the larger offices have 10 or more
permanent staff. The Legal Attachés are generally temporary
Grade 15s, and the ALATs are temporary Grade 14s for the term of
their assignment. In total, at the end of fiscal year 2003, the Legat
offices were staffed with 119 special agents and 75 administrative
support personnel.12 Legal Attaché personnel are considered part of
the U.S. Embassy staff and the Legal Attaché office is located in a



_____________
       11
           INTERPOL—the International Criminal Police Organization, with
headquarters in Lyon, France, facilitates cooperation among international police
authorities.

       12
            See Appendix IV for a breakdown of personnel by office.


                                  6
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

controlled access area within the diplomatically protected premises of
a U.S. embassy or consulate.13

       As needed, additional personnel are assigned to Legal Attaché
offices on a temporary duty (TDY) basis to help manage the
workload. In addition, unless otherwise directed by FBI headquarters,
Legal Attachés have authority over and are held responsible for all
other FBI personnel who are in the country or region to work on
specific investigations, attend conferences, or conduct training.

FBI and Legal Attaché Priorities

       The intent of the Legal Attaché program is to create a network of
law enforcement relationships that can work together to address the
rising tide of international crime and terrorism. Ultimately, the goal of
the program is to detect, deter, and investigate international crimes
against United States citizens and interests. The FBI believes that
placing agents overseas provides the most reliable, effective, and
timely means to combat international crime and prevent it from
reaching the United States.

       In its 5-year strategic plan issued in May 1998, the FBI has
identified three functional areas, or tiers, that describe the variety of
threats that it must address to realize the goal of enhanced national
and individual security. Tier One encompasses foreign intelligence,
terrorist, and criminal activities that directly threaten the national or
economic security of the United States. Tier Two encompasses crimes
that affect the public safety or undermine the integrity of American
society. Tier Three encompasses crimes that affect individuals and
crimes against property. Legal Attachés’ investigative efforts cover all
of these tiers, but much like the FBI as a whole since the
September 11, 2001, terrorist attacks, their number one priority is the
prevention of terrorist attacks against the United States and its
interests. As a result, the bulk of the Legats’ workload centers on
counterterrorism activities.




_____________
       13
          A controlled access area is a specifically designated area within an
embassy where classified information up to a secret level may be handled, stored,
discussed, or processed.


                                 7
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

Activities of Legal Attachés

      The activities of FBI staff assigned to Legal Attaché offices vary
to some degree depending on the country or region where the office is
located and the nature of the criminal threats to the United States. In
general, however, the primary function of Legal Attachés is to
establish, maintain, and enhance liaison with foreign law enforcement
agencies. Legal Attachés serve as a conduit between FBI headquarters
and field offices needing investigative assistance or information from
foreign countries and law enforcement officials in those countries. At
the same time, foreign law enforcement agencies transmit their
requests for investigative assistance in the United States via Legal
Attaché offices to FBI domestic offices. By working cooperatively with
foreign police agencies, the Legal Attaché offices seek to build
networks that prevent crime or, alternatively, that ensure access to
the information the FBI needs to locate and extradite international
criminals and terrorists and obtain evidence for their prosecution.
Most Legal Attachés have liaison responsibilities for multiple countries,
so they often spend a significant portion of their time traveling.

       In some instances, Legal Attaché staff may become directly
involved in specific investigations and may be assisted in these
investigations by FBI personnel sent from the United States. However,
Legal Attaché personnel have no law enforcement authority in foreign
countries; they have no arrest powers and usually are not allowed to
carry weapons. Thus, investigations are usually conducted jointly with
foreign law enforcement agencies in accordance with local laws and
policies and procedures established by the host country. In addition,
because investigative activities could have an impact on the conduct of
U.S. foreign relations, these investigations must be coordinated with
the State Department.

      Legal Attachés also facilitate the rapid deployment of FBI
personnel in response to major cases such as the attacks on U.S.
embassies in East Africa, the bombing of the U.S.S. Cole in Yemen,
and the September 11, 2001, terrorist attacks (PENTTBOM).14 The
number of agents and other FBI personnel that have been sent abroad
temporarily to work on such investigations is significant. For example,

_____________
      14
         PENTTBOM is the FBI’s term for its investigation of Pentagon-World Trade
Towers bombings on September 11, 2001.



                                 8
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

according to recent congressional testimony, in the aftermath of the
September 11 attacks and throughout the following year, about 700
FBI personnel were temporarily assigned overseas to work on
PENTTBOM.15

        Another key function of Legal Attachés is to coordinate their
activities with other U.S. law enforcement and intelligence agencies
that operate in the same country or regions to exchange information
and to avoid duplication and overlap. These include the Bureau of
Diplomatic Security within the State Department, whose agents,
known as Regional Security Officers (RSOs), protect U.S. embassy
facilities; the Central Intelligence Agency (CIA); the Drug Enforcement
Administration (DEA); the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF); Immigration and Customs Enforcement (ICE);16 and
in countries where the U.S. military maintains installations, U.S.
military investigative and intelligence services. Legal Attachés also
participate on embassy law enforcement teams, consisting of
representatives of the federal law enforcement agencies assigned to
the embassy, which advise the Ambassador and share information on
law enforcement matters.

      Providing or arranging for training for foreign police officials is
another important activity of Legal Attachés. For example, Legats
make presentations at training sessions and seminars and arrange for
technical assistance from FBI headquarters when needed or requested
by the host country. In addition, they interview candidates from
among their foreign police contacts to attend law enforcement training
programs in the United States and abroad. This training includes the
FBI National Academy in Quantico, Virginia, which mid-level managers
from state, local, and foreign police agencies receive training, and the
International Law Enforcement Academy in Budapest, Hungary.
Programs like these are designed to strengthen ties between United
States and foreign law enforcement officials. Graduates of the FBI

_____________
      15
           Testimony of Roderick L. Beverly, Special Agent in Charge, Office of
International Operations, before the House Judiciary Subcommittee on Immigration,
Border Security, and Claims, May 13, 2003.

      16
         On March 1, 2003, the law enforcement and investigative functions of the
Immigration and Naturalization Service in the Department of Justice and the
Customs Service in the Department of Treasury were transferred to Immigration and
Customs Enforcement in the Department of Homeland Security.



                                 9
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

National Academy have an international alumni network and about
10 percent of National Academy students come from overseas. Legal
Attachés are expected to maintain close contact with graduates of the
National Academy in their territory, meet with them regularly on
matters of mutual interest, and hold periodic training sessions for the
graduates.

Audit Approach

       We initiated this audit because of the growing importance and
significance of the FBI’s Legal Attaché program. The objectives of our
review were to examine the Legal Attaché program to determine:
1) the type of activities performed by Legal Attaché offices, 2) the
effectiveness of the offices in establishing liaisons with foreign law
enforcement agencies and in coordinating activities with other U.S. law
enforcement and intelligence agencies stationed overseas, 3) the
criteria and process used by the FBI to determine the placement of
offices including oversight and management of existing offices, and
4) the processes for selecting and training FBI personnel for Legat
positions.

       We conducted work primarily at FBI Headquarters in
Washington, D.C. and at Legal Attaché offices in Berlin (and its sub-
office in Frankfurt), Germany; Ottawa, Canada; Pretoria, South Africa;
and Tokyo, Japan.

      At FBI Headquarters we interviewed officials from the Office of
International Operations; the Office of Professional Responsibility
(OPR); Language Services Section; and the Criminal,
Counterterrorism, Inspection, Finance, Security, and Administrative
Services Divisions. We reviewed policies, procedures, manuals,
correspondence, and other documents related to the Legal Attaché
program. We also reviewed Legal Attaché annual accomplishment
reports, Inspection Division reports, workload data, OPR cases,
vacancy packages and language scores, and information on TDY travel
to selected foreign locations.

      At the Legal Attaché offices, we interviewed the Legal Attaché
and selected staff assigned to the office. At each embassy, we also
interviewed the Ambassador and selected embassy staff including
representatives of other U.S. law enforcement and intelligence
agencies. In addition, we interviewed officials at the American
Consulates in Toronto, Canada, and Cape Town, South Africa (see
Appendix III for a list of our contacts at the embassies and consulates
                             10
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

visited). We also interviewed numerous representatives from law
enforcement and security agencies in the countries we visited (see
Appendix II for a list of the foreign agencies). At the Legal Attaché
offices, we examined various records, files, and documents, observed
physical security, followed up on selected FBI Inspection Division
findings, and examined a judgmental sample of open requests for
assistance from domestic FBI offices. Further details of our scope and
methodology are presented in Appendix I.




                             11
                  REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

CHAPTER 2: LEGAT OFFICE AND COUNTRY
           INFORMATION

       The following sections in this chapter present background
information on each Legal Attaché office we reviewed and the country
or region covered by these offices. We selected these locations
judgmentally to obtain a cross section of offices, taking into
consideration factors such as the number of staff assigned, number of
countries covered, geographic location, workload, crime problems,
ongoing terrorism-related work, and prior inspection findings.
Although the mission of each Legat office is the same, the activities of
offices vary because of the differing political and cultural settings in
which they operate and because of the nature of the crime problems
that exist in the host country or region that have a connection to the
United States. Thus, no single Legat office can be considered typical.

Legat Ottawa

       The Legat office in Ottawa has responsibility for FBI liaison
matters in Canada (see Exhibit 2-1). Canada is the second largest
country in the world in terms of land area. It is comprised of ten
provinces and three territories spanning five time zones and has a
population of over 31 million. About 80 percent of the population lives
within 100 miles of the U.S. border. Canada’s major population
centers are Montreal, Quebec; Toronto, Ontario; and Vancouver,
British Columbia. Ottawa, the capital, is located in the St. Lawrence
Valley between Montreal and Toronto. The official languages in
Canada are French, spoken primarily in the Province of Quebec, and
English, the dominant language for the rest of the country. According
to a Department of State Background Note, the bilateral relationship
between Canada and the United States is probably the most extensive
in the world as evidenced by the $1.4 billion in daily trade and the
200 million peopl e who cross the border annually.17

      The Legal Attaché office in Ottawa, opened in 1942, is one of the
oldest of the FBI’s foreign offices. As of April 2003, it was staffed by a
Legat, four ALATS, and four office assistants. Because of the heavy


_____________
      17
          Background Notes are issued by the Department of State and contain
information on countries with which the United States has relations.


                               12
                    REDACTED AND UNCLASSIFIED
                                  REDACTED AND UNCLASSIFIED

                           EXHIBIT 2-1
                  LEGAT OTTAWA TERRITORY
      EXISTING AND PROPOSED LEGAT LOCATIONS IN CANADA




     YUKON
     TERRITORY



                  NORTHWEST
                   TERRITORIES

                                            NUNAVUT




    BRITISH                                                                                       NEW FOUNDLAND
     COLUMBIA

                  ALBERTA




      Vancouver
                                           MANITOBA
                            SASKATCHEWAN

                                                                         QUEBEC
                                                                                                       PRINCE EDWARD ISLAND
                                                      ONTARIO




                                                                                                   NOVA SCOTIA
                                                                Ottawa
                                                                                  NEW BRUNSWICK



                                                                Toronto




Legend:

    Legal Attache Office

   Existing Sub-office

    Proposed Sub-office




                                             13
                                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

workload, additional personnel are frequently assigned on temporary
duty. A sub-office, staffed by one ALAT and one Office Assistant, was
established in Vancouver in May 2001 and covers the Province of
British Columbia and the Yukon Territory. The FBI has been
authorized to open an additional 3-person sub-office in Toronto.

       Most of Legat Ottawa’s workload before and after September 11,
2001, has been focused on addressing terrorism matters. According to
Legat Ottawa’s September 30, 2002, Annual Accomplishment Report,
the PENTTBOM investigation alone generated more than 7,000
requests for assistance from FBI headquarters and field offices. The
office receives many other requests relating to national security,
national infrastructure protection/computer intrusion, telemarketing
fraud, organized crime, drugs, money laundering, Canadian-based car
theft rings, and fugitives.

       Legat Ottawa’s workload is the largest among all Legal Attaché
offices due largely to the country’s proximity to the United States. The
common, lengthy, and largely unguarded border makes it relatively
easy for crime to traverse the two countries. [CLASSIFIED
INFORMATION REDACTED].

Legat Berlin

      The Legal Attaché office in Berlin has responsibility for liaison
matters in the Federal Republic of Germany (see Exhibit 2-2).
Germany consists of 16 federal states, 5 of which comprise the former
German Democratic Republic. It has a population of over 83 million
inhabitants, the largest in Europe after Russia. It also has the largest
economy in Europe. Germany’s land area is comparable in size to
Montana.

       The Legal Attaché office used to be located in Bonn, the former
capital of West Germany. Shortly after the reunification of Germany in
1990, the German government designated Berlin as the new capital
and later, the American Embassy and the Legal Attaché office moved
to Berlin. Various German law enforcement agencies maintain
headquarters offices in cities other than Berlin, thereby requiring Legat
staff to travel throughout the country. In addition, there are a large
number of U.S. military facilities located in the country.




                             14
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

                    EXHIBIT 2-2
              LEGAT BERLIN TERRITORY
EXISTING AND PROPOSED LEGAT LOCATIONS IN GERMANY




                               Berlin




           Bonn



                   Frankfurt




Legend:

   Legal Attache Office

   Existing Sub-office

   Proposed Sub-office




                             15
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


       As of June 2003, the Berlin Legat was staffed by a Legat, one
ALAT, and two Office Assistants. The Legat and the ALAT were fluent
in German. The Legat told us that most of the discussions with their
liaisons are carried out in German. At the time of our visit, a special
agent was also assigned on temporary duty to this office for a 6-month
period; this agent had been previously detailed to the office several
times and was also fluent in German.

      A Legat sub-office is located in Frankfurt and, at the time of our
review, was staffed by two ALATS, two Office Assistants, and one
analyst on temporary duty assignment. The two ALATS were
conversant in German. There were also two special agents who were
on temporary duty assignment at a German counterterrorism center in
Meckenheim. One ALAT from Frankfurt supervises these two special
agents. A sub-office is expected to open in Bonn in the near future,
and the FBI expects to staff it with two ALATs and one Office Assistant.

      Terrorism matters are the number one priority worked by Legat
Berlin and because one of the key terrorist cells responsible for the
September 11, 2001, attacks was located in Hamburg, a considerable
amount of the office’s time was spent on the PENTTBOM investigation.
According to the FY 2002 Legal Attaché Annual Accomplishment report
for Berlin, the office processed over 1,400 requests for assistance
during the first month of this investigation, and about 100 FBI
personnel were sent on temporary duty to Germany in support of the
PENTTBOM investigation during calendar year 2002. The Legat office
also works other requests relating to terrorism, foreign
counterintelligence, organized crime, and fugitive cases.

Legat Pretoria

       The Legat office in Pretoria, South Africa ha s responsibility for
FBI liaison matters in 15 sub-Saharan countries in Africa: Angola,
Botswana, Comoros, Diego Garcia, Lesotho, Madagascar, Malawi,
Mauritius, Mozambique, Namibia, Seychelles, South Africa, Swaziland,
Zambia, and Zimbabwe (see Exhibit 2-3). The closest country—
Botswana—is 150 miles away, and Diego Garcia, an island in the
Indian Ocean, is over 3,000 miles away. Flights to some of these
countries are few in number and travel can be arduous because most
of the region is in a third world state of development, and has




                             16
                  REDACTED AND UNCLASSIFIED
          REDACTED AND UNCLASSIFIED

                 EXHIBIT 2-3
LEGAT PRETORIA TERRITORY IN SOUTHERN AFRICA




                                                                                               DIEGO GARCIA


                                        MALAWI
                                                       COMOROS
                                                                        SEYCHELLES


     ANGOLA

                   ZAMBIA
                                                  UE
                                                IQ




                                                                                RR
                                              MB




                                                                           SCCAA
                           ZIMBABWE
                                            ZA
                                          MO




                                                                       GAAS
                                                                    DAAG



     NAMIBIA
                                                                 MAAD




               BOTSWANA
                                                                 M




                                                                                           MAURITIUS
                         Pretoria                SWAZILAND


               SOUTH
                AFRICA




                                    LESOTHO




                                                                       Legend:

                                                                                     Legal Attache Office




                     17
          REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

unstable governments, inadequate communication services, erratic
public transportation, unfavorable economic conditions, and an
escalating rate of violent crime. English is the predominant language
in most of the countries with the exceptions of Angola, Mozambique,
Comoros, Lesotho, and Madagascar, where other languages including
Portuguese, Arabic, Sesotho, and French are spoken.

       South Africa is a developing na tion about twice the size of the
state of Texas. The country enjoys a reasonably well-established
infrastructure, access to world financial markets, and abundant natural
resources. Between the 1970s and the early 1990s relations between
the United States and South Africa were adversely affected by South
Africa’s racial policies. In 1994, South Africa became a democracy
when Nelson Mandela was elected President of the new South Africa,
bringing the era of apartheid to an end.

      The Legat Pretoria office became operational in June 1997. It is
located in the capital city of Pretoria, South Africa, and, at the time of
our review, was staffed by a Legat, one ALAT and one Office Assistant.
Legat Pretoria does not have any sub-offices in its territory.

       According to the FY 2002 Legal Attaché Annual Accomplishment
Report, the Legat has visited every country in his territory at least
once with the exception of Diego Garcia and Lesotho. The Legat told
us that he would like to make more frequent liaison trips to the other
countries in his region, but that other work priorities and travel budget
constraints limited the number of visits made. Further, much of the
Legat’s work pertains to South Africa; thus the need for contact with
most of the other countries is relatively infrequent. The Legat stated
that he is usually able to get needed information from countries in his
territory either through his own contacts in police departments or by
working with the Regional Security Officers at the U.S. embassies in
these other countries.

       Besides high rates of HIV/AIDS, a 30 percent unemployment
rate, and illiteracy, crime is one of the most pressing societal problems
facing South Africa today. The incidence of rape, for example, is
reportedly one of the highest in the world. Murders, car jackings, and
home invasions are common occurrences and cross all economic
classes. According to the FY 2002 Legal Attaché Annual
Accomplishment Report, there has been an influx of Russian, Eurasian,
Italian, and Asian criminal syndicates because of the availability of
modern transportation, communication, and banking systems in South
Africa.
                              18
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

      Also, according to the 2002 Legal Attaché Annual
Accomplishment Report, the cumulative effect of several bombings
that occurred in the region, domestic right wing activity in South
Africa, and requests for assistance related to investigations pertaining
to chemical/biological materials [CLASSIFIED INFORMATION
REDACTED]. The office also receives requests for assistance related to
organized crime and the extradition of fugitives.

Legat Tokyo

       Legat Tokyo has responsibility for liaison matters in Japan and
the Republic of China (Taiwan) (see Exhibit 2-4). Japan is slightly
smaller than the state of California and has a population of about
126 million. It is a major economic power in the region and globally.
The Japan-United States alliance is considered the cornerstone of U.S.
security interests in Asia, and Japan provides bases, material, and
support to about 50,000 U.S. troops stationed in the country. Tokyo is
the capital and the largest city and has a population of over 14 million.
Taiwan is one of the most densely populated countries in the world
with a population of about 23 million in an area about the size of West
Virginia. The U.S. government does not officially recognize the
government of Taiwan. Rather, the American Institute of Taiwan, a
nonprofit corporation incorporated in the Commonwealth of Virginia,
functions like a U.S. Embassy without diplomatic status and pursues
U.S. interests. Taipei, the capital of Taiwan, is located about 1,300
miles from Tokyo. The primary languages spoken in Japan and Taiwan
are Japanese and Mandarin Chinese, respectively—limited English is
spoken in both countries.

      Legat Tokyo opened in 1954 and like Legat Ottawa is one of the
oldest Legat offices. At the time of our review, it was staffed by a
Legat, an ALAT, and two Office Assistants. The current Legat was also
an ALAT in Tokyo between 1987 and 1992. Both the Legat and the
ALAT are fluent in Japanese. At the time of our visit, a special agent
was on a 30-day temporary assignment to help manage the workload
while the Legat and ALAT were traveling and on leave. This individual
was also fluent in Japanese.




                             19
                  REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

                          EXHIBIT 2-4
                 MAP OF LEGAT TOKYO TERRITORY
                      JAPAN AND TAIWAN




                                           JAPAN


                                                   Tokyo




                TAIWAN




Legend:

   Legal Attache Office




                               20
                    REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


       According to the Legat, about 75 percent of the office’s workload
involves Japan, and most of his liaisons are with Japanese officials in
Tokyo. He periodically makes visits to Japanese law enforcement
officials outside the Tokyo area. The Law for International Assistance
in Investigation (LIAI) in Japan governs and limits how requests for
information from the FBI to Japanese law enforcement agencies are
handled and, according to the Legat, there are many legal restrictions
on the ability of the FBI to obtain information.

       Compared to Japan, there are fewer restrictions on the ability of
the FBI to obtain information in Taiwan. The Legat told us that
distance and travel budget constraints limit visits to Taiwan to about
six times per year. However, he maintains frequent contact with law
enforcement and intelligence authorities in Taiwan through telephone
and written correspondence. In addition, some representatives of
these agencies are posted to Tokyo. Because the United States does
not officially recognize Taiwan or its government, the Legat cannot
meet with these officials in their offices or on the premises of the
U.S. Embassy. Thus, the Legat periodically meets with them in public
places in Tokyo.

       Historically, according to the Legat, organized crime was the top
priority of the Tokyo Legat, but this has been overshadowed in recent
years by counterterrorism and counterintelligence issues.
Nevertheless, organized crime, particularly in Japan, remains a threat
to U.S. int erests and the Legat has maintained a longstanding
cooperative relationship with Japanese law enforcement officials who
investigate organized crime matters. The Japanese organized crime
syndication known as Boryokudan, or the Yakusa, has approximately
80,000 members and consists of many groups and subgroups.
Boryokudan groups reportedly participate in criminal activity in the
United States through money laundering, drug trafficking, gun
smuggling, and a wide variety of financial fraud. In Taiwan, organized
crime has been growing in recent years. The major organized crime
groups in Taiwan are the Triads, consisting of about 45-50 gangs, the
largest of which operate internationally, including major metropolitan
areas of the United States.

      While counterterrorism matters are Legat Tokyo’s top priority, its
September 30, 2002, Legal Attaché Annual Accomplishment Report
indicated that the threat of terrorism in Japan and Taiwan was low, in
part, because of their small Muslim/Middle Eastern populations.
However, the large U.S. military and business presence in Japan
                             21
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

coupled with the country’s support of the war on terrorism makes
Japan an attractive target for terrorist acts, according to the report.
As a result, a significant amount of the Legat’s liaison efforts with
Japanese law enforcement and intelligence agencies have centered on
terrorism matters and PENTTBOM-related leads. In the foreign
counterintelligence area, both Japan and Taiwan are very developed
countries and, as a result, they offer numerous opportunities for
economic espionage. In addition, the U.S. military presence in Japan
is always a target for foreign counterintelligence operations.




                             22
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

CHAPTER 3: LEGAT INVESTIGATIVE ACTIVITIES

       A key function of the FBI’s Legal Attaché offices involves
responding to requests for investigative assistance, known as
investigative leads, from FBI headquarters and field offices. These
requests range from simple tasks such as tracing telephone numbers
or obtaining copies of documents to more complex, time-consuming
activities such as tracking financial transactions, locating suspected
criminals and terrorists, or interviewing individuals in connection with
a matter under investigation. Because the Legats lack the jurisdiction
to carry out investigations in foreign countries, they rely on their role
as an intermediary to obtain cooperation and assistance from their
foreign police liaisons, which in turn conduct the inquiries on behalf of
the FBI.

      In recent years, the number of leads handled by Legats has
grown significantly primarily due to an increase in international crimes
and terrorism but also because the number of Legat offices has grown.
Overall, Legats appear to have been able to cope with the increasing
workload. Legat Ottawa, however, has a significant volume of pending
leads —a longstanding problem that the FBI has not addressed
adequately. In addition, we found that controls over temporary duty
travel by FBI personnel to Canada needs strengthening. Specifically,
the FBI could not provide us with documentation showing that required
Ambassador approval, known as a country clearance, had been
obtained for 135 of the 422 personnel who traveled to Canada during a
19-month period between October 2001 and April 2003.

Legats’ Process for Responding to Investigative Leads

       When a federal crime occurs, the FBI office in the vicinity of the
crime must decide whether to open an investigation.18 If it decides to
do so, the office is known as the Office of Origin and the investigation
is referred to as a case. When the Office of Origin needs assistance on
a case from another field office, FBI headquarters, or a Legal Attaché
office, it prepares a request, which is known as a lead. At the time we
began our fieldwork, there were two categories of leads:

_____________
       18
           These decisions are based on a variety of factors including priorities set by
headquarters, knowledge of the local criminal environment, interest of other federal
agencies in the jurisdiction, and the prosecution threshold of the local U.S. Attorney’s
Office.


                                 23
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

administrative, which involve non-investigative tasks and investigative,
which are case-related tasks; in this review we focused on
investigative leads.19 Legats receive leads when an investigation by
the Office of Origin identifies issues that need to be pursued in a
country in the Legat’s assigned territory. Leads are a significant
component of the Legal Attaché office’s workload, and prompt
resolution of the leads can be critical to the FBI’s investigations in the
United States.

      When an Office of Origin ini tiates an investigation, the case is
entered into the Automated Case Support (ACS) system, the FBI’s
centralized records and case management system. The case is
assigned an identification number and an investigative program. An
investigative program, such as Counterterrorism or Violent Crimes
Major Offenders (VCMO) program, provides oversight for the
investigation of particular groupings of classifications. For example,
when a “272C” case is opened (money laundering), it is assigned to
the VCMO program.

      When an Office of Origin determines that leads need to be
pursued by other offices, such as Legats, it prepares an electronic
communication (EC) within ACS. 20 The request typically includes
background information on the investigation, priority level,21 and
instructions on what action is required from the receiving office. For
example, the request may ask the Legat to identify the subscriber of a
telephone number, identify and track financial transactions, locate
suspects, or conduct interviews. The amount of work involved in
responding to these requests can vary widely depending on the nature
of the request.



_____________
       19
           Effective March 1, 2003, the investigative and administrative lead
categories were replaced by three new lead categories: “Action Required,”
“Discretionary Action,” and “Information Only.”

       20
          An electronic communication is a standardized communication component
of the ACS system, which is used to create letters, memoranda, and other internal
FBI documents.

       21
          Leads are assigned one of four priority levels (immediate, priority, routine,
and deadline) according to the speed of service required. For example, an
immediate priority lead requires prompt action while a routine priority lead requires
information or action within the normal course of business.


                                 24
                      REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

       An Office Assistant in each Legat office checks ACS to determine
if any new leads have been assigned to their office. The applicable
ECs are printed and assigned to investigative personnel. At the Legal
Attaché offices we reviewed, the leads were usually assigned to
individual agents by investigative program, such as Counterterrorism
or Violent Crimes Major Offenders. Legat staff at the four Legal
Attachés we reviewed confirmed that their offices’ top priority was to
address leads pertaining to counterterrorism matters and, thus,
counterterrorism leads are typically worked before others.

       Investigative personnel review the action requested and
determine which foreign law enforcement or intelligence agencies can
provide the needed assistance. They then prepare a request to the
law enforcement agency or agencies and either hand deliver, facsimile,
or mail the request. The Legat personnel cannot undertake these
investigations on their own because they do not have law enforcement
jurisdiction in foreign countries. Thus, they rely on their law
enforcement contacts in the foreign country to obtain an answer to the
lead. Legat personnel keep track of their assigned leads and follow up
when necessary. Once an answer is received in whole or in part, the
Legat staff analyzes the information and sends a response to the Office
of Origin.

Legats Have Coped With Sizeable Rise in Leads

       As Exhibit 3-1 shows , investigative leads handled by Legal
Attaché offices have increased significantly. In the 5-year period
between FYs 1998 and 2002, the number of leads rose from 20,267 to
53,105, an increase of about 162 percent. The increase in
investigative leads assigned to Legats is largely attributable to the
surge in international crime and terrorism, especially leads related to
the terrorist attacks on September 11, 2001. Another contributing
factor is that the FBI opened 14 new Legal Attaché offices and 2 sub-
offices during this period. As these offices develop relationships with
their foreign law enforcement counterparts, additional leads are
generated. As Exhibit 3-1 also shows, despite the sharp increase in
leads, the number of pending leads has remained relatively stable,
increasing from 6,489 in FY 1998 to 7,683 in FY 2002, or about 18
percent. Compared another way, the data shows that pending leads
as a percent of total leads have decreased from 32 to 14 percent
during the 5-year period as Exhibit 3-2 illustrates.




                             25
                  REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


                                EXHIBIT 3-1
                    INVESTIGATIVE LEADS BY FISCAL YEAR
                      FOR ALL LEGAL ATTACHÉ OFFICES




      Note: The overall totals for FY 1998, 1999, and 2000 do not reconcile to the
      totals for completed leads and pending leads. We obtained these numbers
      from the ACS Leads Summary report and FBI staff have not been able to
      explain the discrepancies. For example, the data provided by the FBI showed
      that leads totaled 20,267 in FY 1998, but pending leads (6,489) and
      completed leads (14,247) totaled 20,736, or a difference of 469 leads.

      Source: FBI, Legat – Leads Summary, Administrative Report Recap

                             EXHIBIT 3-2
              PENDING LEADS AS A PERCENT OF TOTAL LEADS


                   FISCAL YEAR                 PERCENT
                       1998                       32
                       1999                       26
                       2000                       24
                       2001                       20
                       2002                       14

      Source: OIG calculation based on data from FBI, Legat – Leads Summary,
      Administrative Report Recap

      Exhibit 3-3 shows investigative lead data for the four Legal
Attaché offices we reviewed. Similar to the data for the Legat offices
as a whole, these four offices have also experienced significant
                               26
                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

increases in the number of leads received, completed, and pending
from FYs 1998 to 2002.

                              EXHIBIT 3-3
                  INVESTIGATIVE LEADS BY FISCAL YEAR
             FOR THE FOUR LEGAL ATTACHÉ OFFICES REVIEWED



      INVESTIGATIVE                         FISCAL YEAR
      LEADS         1998               1999    2000   2001    2002
                                       Berlin
      Leads Received         1,192      1,060     900   1,466  2,554
      Completed                956        929     749   1,119  2,274
      Pending                  131        131     151     347    280
                                      Ottawa
      Leads Received         2,255      2,667   2,902   3,709  4,545
      Completed              1,257      1,788   1,725   2,634  2,974
      Pending                1,007        880   1,177   1,075  1,571
                                      Pretoria
      Leads Received             38       382     586     729    648
      Completed                  28       252     378     630    551
      Pending                    52       130     210      99     97
                                       Tokyo
      Leads Received           597        586     634     731    836
      Completed                556        474     568     669    727
      Pending                   45        112      66      62    109

      Note: Leads received minus leads completed do not always equal leads
      pending for FYs 1998, 1999, and 2000. We obtained these numbers from the
      ACS Administrative Report Recap for each office for these years and FBI staff
      have not been able to explain the discrepancies.

Source: FBI, Legat – Leads by Office, Administrative Report Recap


Review of Pending Leads at Four Offices

      We judgmentally selected and reviewed a sample of open
investigative leads at Legat Ottawa, the first location we reviewed,
because the volume of pending leads was significant in that office and
because we were told that the files for closed leads were not readily
available due to space limitations within the Embassy. To be
consistent, we also reviewed judgmentally selected samples of pending
leads at the other three Legats. Consequently, because our samples
of pending leads were judgmentally selected and because we did not
review closed leads, our results are not necessarily representative of
how the offices responded to their leads overall.

                                27
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

       As Exhibit 3-4 shows, we reviewed 114 leads that were pending
at the time of our review of these offices. We identified minor
discrepancies at all four of the offices involving 28 leads, which
remained open in ACS, yet all the work had been completed. The
Legal Attachés acknowledged that these leads should have been
closed. In addition, we found that two offices, Ottawa and Pretoria,
were sometimes slow to either initiate work on a lead, conduct follow
up, or respond to the Office of Origin. The Legal Attachés in these two
offices acknowledged the delays but explained that they occurred
because the offices concentrated on higher priority matters.

                          EXHIBIT 3-4
             PENDING LEADS REVIEWED AND EXCEPTIONS
                AT THE FOUR LEGAL ATTACHÉ OFFICES

                                         EXCEPTIONS
        LEGAT          LEADS       NOT CLOSED     UNTIMELY
        OFFICES       SAMPLED        IN ACS       RESPONSE
        Berlin           32             2             0
        Ottawa           33             9            22
        Pretoria         25             2             9
        Tokyo            24            15             0
             TOTALS     114            28            31


       The following are examples of some of the delays we identified
during our review of Pretoria and Ottawa’s open investigative lead
files.

  •   The New York field office asked Legat Pretoria on August 9,
      2001, to investigate certain individuals and interview them if
      necessary regarding allegations that had been made about
      weapons and explosives bound for the United States. The lead
      was designated routine by the Office of Origin meaning that
      action was required within “the normal course of business.”
      However, no action had been taken on this lead more than
      16 months later when we reviewed it in January 2003.
      According to the ALAT, the lead was overlooked and added that
      he would follow up.

  •   On September 25, 2001, the Buffalo field office asked Legat
      Ottawa to conduct a background check on an individual who had
      sent photographs of the World Trade Center destruction to a
      former co-worker and to conduct a follow-up investigation if
      necessary. This lead was designated routine. The lead was
      assigned to an agent on May 14, 2002, almost 8 months later,
      at which time action was taken to initiate requests to Canadian
                                 28
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

      law enforcement authorities. Subsequent follow up action was
      not taken until another 10 months later, when second letters
      were sent to the Canadian law enforcement agencies. According
      to the Legat, the office was understaffed and was busy
      addressing higher priority PENTTBOM leads.

  •   On January 11, 2001, the New York field office requested that
      Legat Ottawa contact Canadian authorities in an effort to obtain
      current information relative to possible terrorist and or criminal
      activities of two subjects in Canada. This request was
      designated as a priority lead meaning that action needed to be
      initiated within 24 hours. However, the Legat did not send
      requests to the Canadian Security Intelligence Service (CSIS)
      and the Royal Canadian Mounted Police (RCMP), until March 8,
      and April 6, 2001, respectively. CSIS responded on June 6,
      2001, and Legat Ottawa forwarded their information to the
      New York field office and kept the lead open pending a response
      from the RCMP. However, action was not taken to follow up
      with the RCMP until September 24, 2002, over 17 months later.

Backlog of Pending Leads in Ottawa

       According to FBI officials, Legat Ottawa has a heavy workload
and receives a large volume of leads relative to most other offices
because its proximity to the United States results in its playing a
substantial role in supporting many FBI investigative matters. This
heavy workload has resulted in a backlog of pending leads. As
Exhibit 3-5 shows, as of June 30, 2003, Legat Ottawa had 1,134 leads
pending, the highest number of pending leads of any Legal Attaché
office.22 In comparison, the other Legat offices averaged 104 pending
investigative leads on the same date. According to the Ottawa Legat,
about one-half of the backlog consisted primarily of white-collar
criminal matters such as telemarketing fraud, child pornography,
organized crime, and Internet scams.




_____________
      22
           As of December 31, 2003, Legat Ottawa had 1,335 pending leads.


                                 29
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

                                EXHIBIT 3-5
            PENDING INVESTIGATIVE LEADS BY LEGAL ATTACHÉ OFFICE
                            AS OF JUNE 30, 2003

                                                       PENDING
                         LEGAL ATTACHÉ OFFICE           LEADS
                        Almaty, Kazakhstan                      35
                        Amman, Jordan                           39
                        Ankara, Turkey                          68
                        Athens, Greece                          65
                        Bangkok, Thailand                       89
                        Beijing, China                          20
                        Bern, Switzerland                     179
                        Berlin, Germany                       167
                        Bogotá, Colombia                        48
                        Brasilia, Brazil                        56
                        Bridgetown, Barbados                    45
                        Brussels, Belgium                       97
                        Bucharest, Romania                      39
                        Buenos Aires, Argentina                 33
                        Cairo, Egypt                            63
                        Canberra, Australia                     71
                        Caracas, Venezuela                      29
                        Copenhagen, Denmark                     59
                        Hong Kong, SAR, China                   45
                        Islamabad, Pakistan                     48
                        Kiev, Ukraine                           64
                        Lagos, Nigeria                          69
                        London, England                       450
                        Madrid, Spain                           83
                        Manila, Philippines                   116
                        Mexico City, Mexico                   339
                        Miami, United States
                        (Liaison Office)                       NA
                        Moscow, Russia                        169
                        Nairobi, Kenya                          22
                        New Delhi, India                        69
                        Ottawa, Canada                      1,134
                        Panama City, Panama                     22
                        Paris, France                         465
                        Prague, Czech Republic                  42
                        Pretoria, South Africa                  89
                        Riyadh, Saudi Arabia                  399
                        Rome, Italy                           165
                        Santiago, Chile                         21
                        Santo Domingo, Dominican
                        Republic                                71
                        Seoul, South Korea                      96
                        Singapore, Singapore                  173
                        Tallinn, Estonia                        32
                        Tel Aviv, Israel                        92
                        Tokyo, Japan                            83
                        Vienna, Austria                       108
                        Warsaw, Poland                          24
                         TOTAL                              5,692
Source: ACS Administrative Recap Report for the 9 months ending June 30, 2003.

                                 30
                      REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


       The Legat also told us that several factors account for the
backlog. Many pending investigative matters could not be fully
addressed between 1999 and 2001 becaus e a majority of the
personnel assigned to the Ottawa Legal Attaché office were working
full-time on the BORDERBOM case. Soon thereafter the September 11
terrorist attacks occurred, which resulted in a huge upsurge in
investigative leads —more than 7,000—that had to be pursued before
any others. Because of the heavy workload associated with the
BORDERBOM and PENTTBOM investigations, the office had a difficult
time keeping up with other lower priority, but still important leads.

       In addition, the Legal At taché told us that Canadian authorities
were sometimes slow to respond to the FBI’s requests partly because
of the significant volume of requests that were submitted to them.
Officials from a component of the CSIS, one of Legat Ottawa’s primary
liaisons, for example, told us that the number of requests they
received from the Legat office after September 11 increased by
300 percent, and each request had to be researched. They added that
the increased volume of these requests presented a major challenge
for their agency.

      We believe another contributing factor to the office’s backlog
could be the process it used for requesting and obtaining information
from Canadian law enforcement and intelligence authorities. The
process was paper intensive and time consuming, especially given the
volume of leads. Ottawa staff advised that they spent considerable
time typing requests for assistance and often a lead required requests
to both of the Legat’s primary liaisons.

      CSIS officials told us that the hard-copy correspondence they
received from the Legat slowed down their ability to respond because
CSIS was highly automated and operated in a virtually paperless
environment. Consequently, preparing hard-copy responses to the
Legat’s requests was time consuming. [CLASSIFIED INFORMATION
REDACTED].

      The Legat acknowledged the inefficiency of the office’s process
for requesting information from the foreign liaisons and told us in
October 2002 that plans were underway to establish an electronic link
with CSIS and the RCMP. During a follow up visit to Ottawa in April
2003, the Legat told us an electronic link had been set up with CSIS
that now allows the office to transmit its requests and receive
responses electronically and we were provided with a demonstration of
                             31
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

the process. The Legat added that he hoped to establish a similar
electronic link with the RCMP in the near future. As of October 2003,
this had not yet occurred.

Ottawa Backlog Previously Reported by FBI Inspection Division

      The last two reviews conducted of the Ottawa Legal Attaché
Office by the FBI’s Inspection Division reported that the office was
having difficulty addressing its heavy workload. For example, the
July 1998 inspection noted that the number of leads assigned to Legat
Ottawa had increased by 122 percent since a previous inspection in
1993, yet the staffing level had remained the same. The report added
that because of the excessive workload in the office, investigative
personnel were unable to properly follow up on the large number of
outstanding leads. The report recommended that Ottawa’s staffing
levels be reviewed. In response, FBI headquarters officials said they
would dispatch TDY personnel to Ottawa until the workload was
brought to a manageable level and would monitor the office’s workload
and provide continued TDY assistance until a permanent solution was
found.

      A subsequent inspection of the Ottawa Legat in July 2001
indicated that the backlog of pending leads persisted and concluded
that the office’s staffing level was inadequate to address the workload.
The report noted that during the inspection period 31 special agents
and 15 support employees were detailed to the Legat to help with the
workload. The report went on to say, however, that this short -term
strategy of assigning TDY personnel on a continuing basis to address
the huge backlog of leads was not cost effective and did not lend itself
to the assignment of long-term complex matters to TDY personnel.
The inspection report recommended that the FBI consider assigning
permanent rather than temporary staff to reduce the backlog.

Actions Taken by FBI Have Yet to Fully Address the Backlog

       In response to the Inspection reports, the FBI has continued to
send staff to Legat Ottawa on a temporary basis. For example, since
the last Inspection in July 2001 through the end of fiscal year 2002, a
total of 47 additional special agents and support personnel were
assigned to help reduce the office’s workload. Temporary staff
continued to be sent in FY 2003, including two agents from the
Criminal Division specifically tasked to work on the unaddressed white-
collar crime leads.

                             32
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

      The FBI’s heavy reliance on short -term temporary duty staff has
had limited success, however, in reducing the backlog of pending leads
in Ottawa and, in our opinion, the use of TDY staff does not appear to
be an efficient or effective solution. According to the Legat, most of
the temporary personnel are assigned for 30 to 60 days, which is
disruptive to the operation because it is not enough time to master the
process for requesting assistance from Canadian law enforcement
authorities or work on complex matters. For example, the Legat said
that TDY agents often initiate requests with Canadian law enforcement
authorities but return stateside before a response is received, thus
necessitating someone else, usually another TDY agent, to become
familiar with the matter and to prepare the response to the Office of
Origin. The use of TDY staff is also disruptive, the Legat said, because
each new temporary employee needs training and closer supervision
than permanently assigned staff.

       In 2001, the FBI opened a sub-office in Vancouver staffed by
one ALAT and one Office Assistant. A second sub-office to be located
in Toronto, and staffed by two ALATs and one Office Assistant, was
approved in 2003. OIO officials told us in November 2003, however,
that the sub-office was unlikely to be opened due to difficulty locating
suitable space in a controlled access area. The establishment of the
sub-office in Vancouver and the one in Toronto, if opened, could
alleviate some of the workload in Ottawa but these sub-offices will
likely create additional work as new liaisons are established.

       At the end of FY 2001, the Ottawa Legat had four agents and
four office assistants. During FY 2002, an additional ALAT position was
reallocated to Ottawa from the Mexico City Legal Attaché Office and
the FBI plans to fill an additional ALAT position during FY 2004 for a
total of two additional agents. Therefore, in FY 2004, Legat Ottawa
will be staffed with 10 permanent positions.

Controls Over Temporary Duty Travel Need Improvement

       Department of State rules require that all U.S. government
employees obtain approval from the U.S. Ambassador before traveling
to a foreign country to conduct official business. This approval is




                             33
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

known as a country clearance.23 By Memorandum of Understanding
(MOU) signed by the Department of Justice and the Department of
State, the FBI has agreed to keep the U.S. Ambassadors informed
beforehand of all FBI employees and their activities in the
Ambassadors’ territories. At the same time, it is also critical for the
Legal Attachés to be aware of all FBI personnel who are traveling on
official business in their assigned countries or regions.

       Requests for overseas travel must be approved by the Special
Agent in Charge of the appropriate field office, the Assistant Director in
Charge of the Field Division, the Assistant Director of the
corresponding headquarters division, and the Legal Attaché who
obtains the country clearance from the U.S. Ambassador of the
destination country. Requests vary depending on the circumstances
and the country to be visited, but at a minimum are expected to
include such things as the name of the traveler(s), purpose and nature
of the trip, name of country to be visited, identity of persons or
entities to be contacted, proposed itinerary, and estimated travel
costs. Requests and approvals of country clearances are normally
processed electronically within the ACS system. We were told,
however, that sometimes clearances are processed outside the ACS
system and that no mechanism is in place to ensure that the required
clearances are obtained.

      On at least two occasions since 2000 the FBI has issued
memoranda to its employees emphasizing the importance of obtaining
country clearances. In a July 2000 memorandum, OIO reported
instances where FBI personnel had traveled to foreign countries
without obtaining the required country clearances. Without identifying
the countries involved, the July 2000 memorandum stated that some
FBI personnel traveled repeatedly without obtaining country
clearances, and as a result a U.S. Ambassador denied the FBI
permission to travel to or through the foreign country until discussions
were held at the highest levels of the FBI and the Department of
State. In other instances, the memorandum noted that an
Ambassador denied country clearances when the requests for country
clearances were presented late. The memorandum emphasized that
_____________
       23
           FBI personnel traveling abroad on official business are also required to
travel on official, rather than personal, passports issued by the Department of State
Passport Office. The travelers may also be required to obtain a visa—a permit,
affixed on the passport, which allows the bearer to transit through or enter into a
foreign country for a specified period of time.


                                 34
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

the failure to obtain country clearances was more than a breach of
etiquette; it violated the Departments of Justice and State
Memorandum of Understanding requiring the FBI to keep
U.S. Ambassadors informed of all activities and operations of FBI
employees within the Ambassadors’ territories.

      In March 2002, the FBI Director issued a memorandum to all
Special Agents in Charge noting that Legats were continuing to
encounter inappropriate actions on the part of domestic agents who
apparently were unaware of international rules. The Director pointed
out that FBI employees must contact the appropriate Legat and
request and obtain country clearance before traveling to any country
as a representative of the Executive Branch of the U.S. government.

      The Ottawa Legal Attaché told us that he believed that some FBI
personnel were traveling into Canada on official business without his
knowledge and, therefore, without the required country clearances.
Because this appeared to be a continuing problem and because we
noted that country clearances were not an area covered during FBI
inspections of Legat offices, we requested that the Travel Advance and
Payment Unit in the FBI’s Finance Division identify all personnel who
had traveled on official business to Canada between October 1, 2001,
and April 17, 2003. After adjusting the list for travel that either had
not occurred, was listed in error, or involved duplicate entries, we
determined that 422 people on the list had traveled to Canada during
this period.24

      We compared the Travel Unit’s list to the Legat’s list of personnel
who had received country clearances. According to the Legat’s
records, only 173 of these FBI employees had been granted country
clearance. However, the Legat acknowledged that his list was not
necessarily complete and said that some country clearances could
have been overlooked and not added to the list, especially soon after
_____________
       24
           Because the information we were seeking was not readily available, the
Travel Unit ran a special program to query the database of travel vouchers to identify
travelers to Canada during this period using data from the FBI’s Financial
Management System. The query included all the major cities in Canada and the
term “Canada” and therefore should have captured most FBI personnel who traveled
to Canada during the period. According to the Travel Unit Chief, however, this list
may not be complete for various reasons such as incomplete travel destination
information on the travel vouchers or because of data input errors. We also obtained
similar data for Germany.



                                35
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

September 11. At FBI headquarters, we asked OIO staff to research
the remaining 249 names for evidence of country clearance. Through
research of the ACS system, OIO found approved country clearances
for 75 personnel who were not on the Legat’s list and claimed that 39
others had attended a conference in Toronto and had received a
blanket country clearance. For the remaining 135 personnel, OIO was
unable to locate a record of either a country clearance request or
approval in ACS. Subsequent to our exit conference, OIO officials
directly contacted some of these travelers and were told by some that
they had copies of their country clearances. While the number of
travelers without country clearances may decrease somewhat as a
result, the fact that OIO had to contact individuals, rather than
obtaining this information from a centralized source, in our opinion,
demonstrates an absence of internal control over these records.

      We recognize that our review period started on October 1, 2001,
shortly after the September 11 terrorist attacks. Given the national
emergency and the need for an immediate response by the FBI, we
can understand why many FBI personnel might have traveled to
Canada without obtaining country clearances beforehand. Indeed,
according to the information provided by the Travel Unit, 18 of the 135
FBI employees lacking country clearance traveled to Canada between
October and December 2001 and 94 traveled during 2002.
Nevertheless, our analysis also indicates that some FBI personnel have
continued to travel to Canada long after the September 11 attacks
without a country clearance. Of the 135 people lacking country
clearance, 23 traveled between January 2003 and April 2003. In our
opinion, the continued lack of compliance with FBI procedures and
Department of Justice and State agreements is not defensible.

       We also found discrepancies between the Travel Advance and
Payment Unit’s list of 183 FBI employees who had traveled to
Germany between October 2001 and June 2003 and Legat Berlin’s
records of country clearances; 58 of the travelers had not obtained a
country clearance according to the Legat’s records. We asked OIO
staff to research the ACS system for evidence of country clearances,
and based on the documentation or the explanation subsequently
provided we concluded that for 9 travelers the FBI had no record of a
country clearance.




                             36
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Conclusions

       Legal Attaché offices generally appear to have been able to cope
with the sharp increase in investigative leads in the last five years.
But backlogs of investigative leads have been a longstanding problem
at the Ottawa Legat and efforts to reduce the backlog with temporary
personnel have not been effective. The FBI’s efforts to enhance the
permanent staffing of the Ottawa Legat appears to be a step in the
right direction although we are not sure that the addition of two agents
will be sufficient to significantly reduce the office’s backlog.
Nevertheless, this approach could help alleviate the problems
associated with the use of TDY personnel. The establishment of the
sub-offices in Vancouver and Toronto (if opened) could also alleviate
some of the workload in Ottawa but these sub-offices will likely create
additional work as new liaisons are established.

      It is important for U.S. Ambassadors to be aware of all federal
employees who are traveling in a foreign country on official business.
The Ambassadors rely on FBI Legal Attachés to keep them informed
through the country clearance process of all FBI employees, both
permanent and temporary, who are assigned to the Legat’s territory.
Legal Attachés can do this only if FBI personnel follow procedures for
requesting country clearances before traveling abroad and if accurate
and complete records of country clearances are maintained.

       Based on the results of our testing in Canada and to a lesser
extent in Germany, it appears that some FBI personnel traveling on
official business have not obtained appropriate country clearances.
Previous OIO memoranda apparently have not been sufficient to
eliminate this problem. In addition, both Legat Ottawa and Berlin’s
records of country clearances were incomplete and further research by
OIO personnel did not provide documentation for all of the remaining
discrepancies. Consequently, we believe the FBI needs to take
stronger measures to ensure that country clearances are obtained as
required, and develop a system that ensures that complete records of
country clearances are maintained. In addition, the FBI’s Inspection
Division should include compliance with country clearance
requirements as part of its reviews of FBI offices.




                             37
                  REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

Recommendations

     We recommend that the FBI:

  1. Analyze the staffing level in Ottawa and initiate action to adjust
     the permanent staff levels commensurate with the workload.

  2. Implement a process that ensures that FBI personnel obtain
     country clearances before they travel to foreign countries on
     official business, and develop a system that ensures complete
     records of these clearances are maintained.

  3. Direct the Inspection Division to review compliance with country
     clearance requirements during its inspections.




                            38
                 REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


CHAPTER 4: LIAISON ACTIVITIES WERE EFFECTIVE
           AT THE LEGAL ATTACHÉ OFFICES
           REVIEWED

       We concluded that the Legal Attachés in Canada, Germany,
Japan, and South Africa were maintaining effective foreign liaisons.
Most of the officials we interviewed were complimentary about the
Legal Attachés and the working relationship that existed between their
offices. Many provided examples of how they personally, or their
agencies in general, had worked with the Legal Attaché to solve
international crimes. Officials in the two countries where English was
not the primary language—Japan and Germany—often noted how
impressed they were with the ability of Legal Attaché staff to
communicate fluently in their language and emphasized the positive
impact this ability had on fostering a close working relationship. In
addition, many officials spoke highly of the training provided or
arranged by the Legal Attaché.

      We had limited information in advance of our trips regarding the
law enforcement structure of the countries we visited or the Legal
Attachés liaison contacts in these countries, so we relied on the Legal
Attachés to identify their key foreign law enforcement liaisons and
arrange the meetings with officials from these and other agencies.
While an argument could be made that such a selection might be
biased in favor of the FBI, we have no reason to believe this was the
case. We found the discussions to be frank and open and the
comments were not always positive. We also were able to satisfy
ourselves that the agencies we contacted provided a cross-section of
the Legats’ liaison activities.

       The Legal Attachés or their staff sometimes introduced us to
their foreign liaisons, which provided us with an opportunity to observe
firsthand their interaction with these officials. However, Legat staff did
not attend our meetings with the foreign liaisons. When the services
of translators were needed, we either hired them or used translators
provided by the foreign agency.

Details of Liaison Activity and Accomplishments by Office

       The following sections present information on the law
enforcement structure in the countries visited, the views of foreign
officials at the agencies we contacted, and examples of specific

                             39
                  REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

investigations that were worked in conjunction with foreign law
enforcement agencies. The examples were obtained primarily from
fiscal year 2001 and 2002 Legal Attaché Annual Accomplishment
Reports and from discussions with Legat staff.25 In most instances our
meetings with foreign agencies were with high-level officials and so we
generally did not discuss specific investigations. Rather, these
discussions focused on broader issues such as:

   •   The nature of their relationship with the Legal Attaché, including
       the type and frequency of contact.

   •   The types of investigations, support, and information provided to
       the Legal Attachés’ office.

   •   Restrictions or obstacles that limited their ability to provide
       information to the Legal Attaché office.

   •   Responsiveness of the Legal Attaché to their requests for
       information, assistance, or training.

   •   The types of training provided or arranged by the Legal Attaché.

   •   Their views on the effectiveness of the Legal Attaché office.

       Legat Ottawa - The Legat Ottawa’s primary liaison contacts in
Canada are with the Royal Canadian Mounted Police (RCMP) and the
Canadian Security Intelligence Service (CSIS), both of which are
components of the Office of the Solicitor General. A significant amount
of the Legat’s time is spent making requests for information to these
two agencies and furnishing the results to the requesting FBI field
offices or FBI headquarters. In addition, Legat staff participate in joint
investigations with Canadian law enforcement agencies and serve as
liaison with Canadian law enforcement for FBI personnel from the
United States who are in Canada working on investigations.

      The RCMP is the national police force in Canada; it provides
police services to most of the Canadian provinces and territories and is
the local police force for about 200 municipalities. The RCMP is Legat
Ottawa’s primary point of contact for most law enforcement issues in

_____________
       25
          The Legal Attaché Accomplishment reports provide detailed information
about the office’s operations and accomplishments for the past year.


                                40
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Canada. We interviewed officials from the RCMP’s International
Operations, Financial Crimes, and Immigration and Passport Branches
at the agency’s headquarters in Ottawa. All stated that they had a
productive and close working relationship and frequent contact with
the Legat and his staff and mentioned that some of their officers had
attended the FBI’s National Academy. The RCMP officials praised the
Legat’s counterterrorism efforts since the BORDERBOM case and the
September 11 terrorist attacks, but expressed concern that the Legat’s
heavy counterterrorism workload had created a gap in the Legat’s
ability to pursue other serious crimes with a connection to Canada.

      Legat Ottawa’s other principal liaison is with the Canadian
Security Intelligence Service (CSIS), which is engaged in intelligence
gathering and investigations involving threats to Canadian security
such as [SENSITIVE INFORMATION REDACTED] and sabotage, foreign-
influenced activities, political violence and terrorism, and subversion.
CSIS is not a law enforcement agency and if the information it collects
indicates possible criminal activity, the RCMP has jurisdiction. CSIS is
a domestic intelligence agency, [CLASSIFIED INFORMATION
REDACTED]. CSIS is headquartered in Ottawa and has regional offices
throughout Canada.

       We interviewed representatives from the Counter Intelligence,
Counter Terrorism, Counter Proliferation, and the Foreign Liaison and
Visits Branches of CSIS. [CLASSIFIED INFORMATION REDACTED] in
Washington, D.C. On the other hand, they pointed out that the Legat
appeared to be short -handed and, as a result, often relied on
temporary FBI personnel to fill in the gaps. Several of the officials
indicated that long-term relationships were especially important in the
intelligence business. Thus, they were not as comfortable sharing
information with FBI personnel on temporary duty and with whom they
had not developed such a relationship.

       Officials from the Office of the Solicitor General, roughly the
Canadian equivalent of the U.S. Department of Justice, told us they
frequently dealt with the Legal Attaché on political and policy matters,
such as the logistics associated with Solicitor General or DOJ officials’
trips to each others’ countries. They said that the Legat was always
helpful and responsive in dealing with the many details involved in
such trips. On the other hand, these officials said there was a lot of
misunderstanding on the part of the public and some government
officials in Canada regarding the FBI’s presence, especially because
this presence was growing. While these officials thought the Legat had

                             41
                  REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

made a reasonable effort to explain the rationale for the FBI’s
presence, they felt he could do more to “market” the program.

       Representatives from the Ottawa Police Service and the Police
Chief of the Toronto Police Service indicated they had little direct
contact with the Legal Attaché office because the FBI typically went
through the RCMP for information. Nevertheless, Ottawa police
officials said they knew the Legal Attaché and di d not hesitate to
contact him when necessary. They mentioned a burglary of a
Canadian Immigration office that occurred just prior to a visit by the
President of the United States in which several uniforms were stolen.
The Deputy Police Chief said she immediately notified the Legal
Attaché of the incident.

       One difference between Legat Ottawa and the other Legats we
reviewed was that, because of Canada’s proximity to the United
States, FBI field offices near the border have for many years worked
closely with Canadian police authorities. This creates a potential for
conflict if the Legat, who is responsible for all FBI activities in Canada
is not kept apprised of what contacts field offices are making in
Canada. However, the Chief of the Toronto Police Service told us that
over the years he had developed a strong working relationship with
the FBI’s Buffalo, New York field office and, consequently, preferred to
deal with agents from that office rather than the Legat staff in Ottawa.

      We discussed the Chief’s comments with the Legat and he told
us that in the past the Buffalo field office had nominated Toronto law
enforcement officials to participate in FBI National Academy training
programs without his input or concurrence. After he had raised his
concerns about the practice, the Buffalo field office began to seek his
input. Nevertheless, he still believed he was, in effect, competing
against the Buffalo field office in providing training slots at the FBI
National Academy for Canadian law enforcement officials.

       We brought this issue up with FBI Headquarters officials at the
exit conference and they subsequently provided documents which
discussed the establishment of a “Border Liaison Officer” position in
the Buffalo field office. Such positions have been in existence on the
Mexican border and in the Caribbean since the early 1990s and are
designed to help FBI field offices deal with the myriad of criminal
activity occurring across the border with Mexico and the Caribbean.
According to the documents provided, the Buffalo Border Liaison
Officer is responsible for coordinating contacts with Canadian law

                              42
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

enforcement and intelligence agencies in the Buffalo/Niagara border
region and keeping Legat Ottawa apprised of these contacts.

      Determining whether the Buffalo field office appropriately
coordinates its contacts in Canada with the Legat was beyond the
scope of our review. However, the police chief’s comments raise a
concern. In our opinion, the role of the Legat could be diluted if
Buffalo field office personnel are not coordinating their activities with
the Legat. Further, if the Toronto sub-office is ultimately opened, the
FBI could be perceived by Canadian authorities as being disjointed if
both the Legat sub-office and Buffalo staff are meeting with the same
Canadian authorities and not coordinating their efforts. In addition,
other FBI field offices near the Canadian border may have similar
contacts with their Canadian counterparts, all of which, in our opinion
should be coordinated with Legat Ottawa.

     The following are examples of Legat Ottawa’s liaison efforts and
accomplishments in Canada obtained primarily from the Annual
Accomplishment Reports.

   •   Legat Ottawa worked extensively with the RCMP on the
       BORDERBOM case. In December 1999, an Algerian national,
       Ahmed Ressam, was arrested by U.S. authorities on the
       Canadian border in Washington State while attempting to bring
       explosives into the United States. It was subsequently learned
       that he had intended to bomb Los Angeles International Airport.
       FBI agents from the United States were detailed to Ottawa and
       Vancouver to pursue leads on the case and the Legat supported
       the effort both administratively and operationally. [CLASSIFIED
       INFORMATION REDACTED].

   •   In late 2002, an American citizen was arrested by the RCMP for
       drunken driving in Inuvik, North West Territories. Soon
       afterwards, the sheriff in Montgomery County, North Carolina,
       ran a name check through the NCIC on a suspect in the murder
       of Jennifer Short, a 9-year old girl whose body had been found
       on a property in Stoneville, North Carolina, in September 2002.
       When the sheriff’s office learned that the RCMP had arrested the
       suspect, the Sheriff’s investigators on the case were ordered to
       travel to Canada to interview the subject and search his van,
       apparently under the erroneous assumption that the North
       Carolina search warrant would be valid in Canada. When the
       Legat learned of the situation, he attempted to get the local FBI
       office to intercede with the Sheriff and cancel the trip. When
                              43
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

       that failed he sent the Vancouver ALAT to Inuvik in advance of
       the investigative team’s arrival to ensure that evidence was
       obtained in accordance with Canadian law and the Mutual Legal
       Assistance Treaty with Canada and that positive relations were
       maintained with the RCMP. According to the Legat, the lack of
       experience and training in handling international investigations
       on the part of the local sheriff could have jeopardized the case.

   •   The Legat is assisting FBI headquarters and the New York and
       Detroit field offices in tracking the movements of members of
       the [CLASSIFIED INFORMATION REDACTED] across the
       U.S./Canada border by continually tracking leads and setting up
       conferences and meetings with its Canadian law enforcement
       and intelligence contacts to exchange information.

   •   Over 150 murders have been attributed to motorcycle gangs
       such as the Hell’s Angels and the Outlaws in the Province of
       Quebec. The gangs are also well established in the maritime and
       western pacific provinces and their influence is spreading to
       Ontario. Ontario police authorities have expanded their
       enforcement efforts against the gangs and the Legat facilitated
       the attendance of Canadian law enforcement officials at an FBI
       conference on outlaw motorcycle gangs in August 2002. The
       Legat also facilitated a meeting between RCMP and FBI
       headquarters officials to discuss the exchange of information and
       targeting of cross border motorcycle gang activity.

       Legat Berlin – Legat Berlin’s primary liaison contacts in
Germany are with the German federal criminal police —
Bundeskriminalamt (BKA); the [CLASSIFIED INFORMATION
REDACTED]; and state police agencies, known as Landeskriminalamts
(LKA). We interviewed several of the Legat’s foreign liaison contacts
in these agencies in Berlin, Cologne, and Meckenheim, Germany.
These officials were complimentary of the Legat staffs’ professionalism
and responsiveness and emphasized appreciation for their language
proficiency.

       The BKA is the German federal criminal police. It has three
locations consisting of a headquarters office in Wiesbaden which
includes all criminal case operations, a branch office in Meckenheim for
all counterterrorism and espionage matters, and a branch office in
Berlin for protective responsibilities. The BKA is the Legat’s primary
law enforcement contact in Germany and is responsible for all
investigative and liaison relationships between Germany and foreign
                              44
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

federal law enforcement agencies. The Legat contacts the BKA
concerning all criminal investigative requests, counterterrorism
matters where either a specific threat situation exists or a prosecution
is imminent, and [SENSITIVE INFORMATION REDACTED] matters
where there is evidence to be obtained for presentation in court. The
BKA reviews the requests, determines which technical unit within the
BKA should respond and, if necessary forwards the request to the
appropriate LKA for investigation at the state level.

       The official in charge of the Terrorism Division stated that the
BKA has law enforcement officers from several countries besides the
United States working in their Counterterrorism Center. The personnel
from the other countries are permanently assigned to this location. In
contrast, FBI Legat personnel are temporary and, according to this
official, temporary duty staff are not on site long enough to establish
effective liaisons with BKA staff. The official was pleased, however,
that the Legat staff, including those on temporary assignment, spoke
German. When we discussed this with OIO officials, they agreed that
a permanent presence was desirable. However, they stated that
additional permanent positions abroad have not been funded and, as a
result, a permanent presence in the Counterterrorism Center would
have to come from existing resources.

       Two of the BKA officers we spoke with supervised and worked on
the Hamburg task force that investigated the terrorist cell whose
principals were involved with the attacks of September 11, 2001. The
FBI and the BKA, along with numerous other agencies, worked closely
together on this investigation, they said. Nevertheless, the BKA
officers stated that while they were empowered to share information
with the FBI, this information sharing was often one -way. Authority to
give out information seemed to vary from one FBI agent to another
and some FBI agents had to check repeatedly with FBI headquarters to
determine if they could pass information to the BKA. In the BKA
officials’ opinion, this situation was disruptive to the investigation.

      [CLASSIFIED INFORMATION REDACTED]

      [CLASSIFIED INFORMATION REDACTED]

       We interviewed two high-level officials from the Berlin LKA
(similar to the state police in the United States). Both were graduates
of the FBI’s National Academy. Both officials stated that at their level,
their contacts with the Legat office were nominal, but one of these
officials stated that his staff worked closely with Legat personnel. He
                             45
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

also commented that it was absolutely necessary for the FBI to have a
presence in Germany, especially after the events of September 11.

The LKA processed over 38,000 pieces of data related to the
September 11 hijackers and helped with tracing their movements from
Hamburg.

      The following are examples of Legat Berlin’s accomplishments
from their 2002 Annual Accomplishment report.

  •   Legat Berlin staff worked extensively with the BKA, [CLASSIFIED
      INFORMATION REDACTED], and numerous state police agencies
      on matters relating to PENTTBOM, especially on the investigation
      related to the terrorist cell in Hamburg. From a search of visa
      application records at the U.S. Embassy, Legat staff identified
      several applications with Hamburg addresses related to
      individuals thought to be connected to the terrorist attacks. The
      addresses were immediately passed to the BKA for follow up.
      Working with the German police, Legat staff helped identify over
      three dozen subjects who were either directly or indirectly
      involved in the September 11 attacks, served multiple arrest and
      search warrants, initiated over 130 wiretaps, and interviewed
      hundreds of persons. Through daily interaction with the German
      police, the Legat was able to provide real time intelligence and
      evidence relating to key subjects involved with the
      September 11 attacks to FBI Headquarters and field offices.

  •   Legat Berlin obtained key evidence in Germany that allowed the
      U.S. government to indict Zacharias Moussaoui in connection
      with the terrorist attacks of September 11. The indictment
      alleges that Moussaoui received funding from sources in
      Germany.

  •   Legat Berlin forwarded information to appropriate U.S. military
      criminal investigators about two subjects who were planning to
      use one of the subject’s access to military installations to
      detonate an explosive device. As a result of the Legat’s and the
      criminal investigator’s activities, the German police searched the
      subjects’ residences and located explosive devices and materials.
      Both subjects were arrested and remain in custody pending
      German prosecution.

      Legat Pretoria - The Legat’s primary law enforcement contact
in South Africa is wi th the South African Police Service (SAPS). SAPS
                             46
                  REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

is a national police force that also performs many of the functions that
are performed by local and state police in the United States. It is
headed by a National Police Commissioner and has its headquarters
office in Pretoria. Each of the nine provinces in South Africa also has
its own SAPS office that is headed by a Provincial Police Commissioner,
who in turn reports to the National Police Commissioner. We
interviewed officials from the SAPS’ Crime Intelligence Division, the
National Central Bureau, and the Training Division. We also met with
the SAPS Provincial Commissioner and his Deputy in Cape Town.

        The Crime Intelligence Division (CID) within SAPS conducts
crime analysis relating to terrorism, organized crime, various other
crimes, and intelligence matters. The officials stated that their
Division receives many requests for assistance from the Legal Attaché
office. Their liaison efforts with the Legat office focus on organized
crime and terrorism issues. They have conducted traces and compiled
profiles on individuals, and performed telephone record checks for the
Legat office. After CID logs in the Legat’s request, it is sent out to the
individual provinces for investigation and action when applicable. CID
then receives and finalizes the response and forwards it to the Legat
office. The officials discussed an anthrax-related investigation that
was worked jointly with the FBI, which required many interviews. The
officials stated that it was a good learning experience for their SAPS
officers to see firsthand how the FBI operates, and that this
investigation was handled very professionally.

       Officials from the National Central Bureau component of SAPS
that maintains liaison with INTERPOL said that they worked closely
with the Legat office on extradition matters, shared information on
criminals, and conducted criminal checks on behalf of the FBI. The
officials also said they had helped Legat staff establishing contacts with
law enforcement officials in other countries in Southern Africa. They
commented that the Legat personnel were professional, always
accessible, and responsive.

      The Deputy Commissioner of the SAPS Training Division told us
that SAPS has been sending selected senior officers to the FBI’s
National Academy since 1996; and upon their return, the officers are
expected to train other police officers in order to share their newly
obtained knowledge. He added that, in his opinion, if the FBI did not
have agents “on the ground” in South Africa, the communication
between the two agencies would be poor. He also stated that he was
a graduate of the FBI’s National Training Academy. He added that he

                              47
                   REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

was working closely with the Legat on developing a refresher course
for FBI’s Academy graduates from African countries.

       The SAPS officials we spoke with in Pretoria did not identify any
concerns about their interactions with the Legat during our
discussions. However, when we interviewed the Provincial
Commissioner and his Deputy in Cape Town, they remarked that the
Legat staff had ignored established protocol on at least two occasions
by meeting and seeking assistance from subordinate staff on
investigative matters without first seeking their permission. One of
the incidents, involving an investigation of a Finnish businessman
suspected of selling arms to Iraq, had potential international
repercussions, yet neither their own staff nor the Legat staff had
informed them of the matter, the Provincial officials said. We
discussed these comments with the Legat and ALAT. They explained
that they had met with SAPS police officers in Cape Town after another
U.S. law enforcement official mentioned that the police had
information regarding the Finnish businessman’s alleged activities.
The Legat staff said they quickly determined that the information did
not warrant further investigation and said they told the SAPS police
officers to inform their superiors about the meeting. The Legat staff
said they had not seen a need to contact the Provincial Commissioner
themselves.

      The following are examples of Legat Pretoria’s liaison efforts and
accomplishments partially based on information contained in Legat
Pretoria’s 2002 Annual Accomplishment Report.

   •   In connection with the AMERITHRAX investigation in the United
       States, Legat Pretoria was asked by the FBI’s AMERITHRAX task
       force to identify all laboratories and universities in South Africa
       that handled live anthrax or had the capability of handling live
       anthrax. 26 The Legat was also requested to obtain telephone
       subscriber information and educational and employment
       information on a potential subject who had lived in southern
       Africa. In addition, the Legat coordinated and set up interviews
       with 26 individuals who had contact with the subject and
       assisted staff from the task force and the FBI’s Washington field

_____________
       26
          AMERITHRAX is the FBI investigation of the mailing of at least four letters
in the United States during September through November 2001 that contained
Anthrax.


                                 48
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

       office in conducting the interviews. In assisting on this
       investigation, the Legat coordinated with the U.S. Ambassador in
       Zimbabwe to allay the concerns of Zimbabwe government
       officials about an FBI investigation being conducted in their
       country.

   •   Legat Pretoria worked closely with SAPS on the arrest and
       extradition of fugitive James Kilgore. Kilgore was a former
       member of the Symbionese Liberation Army who was wanted for
       murder in a 1975 bank robbery in California.27 He had been
       hiding out in Cape Town under the name Charles Pape until the
       FBI tracked him down. Based on information provided by the
       Legat, SAPS arrested Kilgore in November 2002. He was
       extradited to the United States and in May 2003 pled guilty to
       murder and was sentenced to six years in prison.

      Legat Tokyo - Our review of Legat Tokyo’s liaison activities was
limited to Japanese law enforcement and intelligence authorities. The
Legat’s primary law enforcement contacts in Japan are with the Public
Security Investigative Agency, the Japan National Police Agency, and
the Tokyo Metropolitan Police Department. According to the Legat,
contacts with representatives from these agencies occurred frequently,
often on a daily basis, and involve counterterrorism, foreign
counterintelligence, organized crime, and other criminal matters, such
as computer and financial crimes and fugitive apprehensions.

       The Public Security Investigative Agency (PSIA) is a component
of the Ministry of Justice responsible for monitoring potentially
dangerous domestic terrorist groups. It gathers intelligence on
organizations that have the potential for violent subversive activities
and disseminates the information to law enforcement agencies. We
interviewed officials from the Legat’s contact within PSIA, the
International Division. These officials advised that they worked closely
with the Legat and readily exchanged information on terrorist threats.
[CLASSIFIED INFORMATION REDACTED]. 28 International Division
officials were also complimentary of the Legat and ALAT’s fluency in
Japanese, their willingness to make presentations at the agency, and
their ability to obtain slots for PSIA officials at the FBI Academy.
_____________
       27
           The Symbionese Liberation Army was a group of individuals that advocated
the violent overthrow of the U.S. government during the 1970’s.

       28
            [CLASSIFIED INFORMATION REDACTED]


                                49
                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


        The Japan National Police Agency (NPA) is the central law
enforcement agency in Japan. Its many duties include supervising and
controlling prefecture police departments, police training and
standards of recruitment, coordinating efforts to combat trans-
prefectural organized crime, and providing international criminal
investigative assistance.29 We interviewed representatives from NPA’s
Second Organized Crime Control Division, Second International Affairs
Division, and the Foreign Affairs Division, Security Bureau. Second
Organized Crime Control Division officials told us that the Legat and
his staff had been very helpful and responsive in providing needed
information on the Yakusa’s contacts in the United States. Similar to
PSIA officials, NPA officials were also highly complimentary of the
Legat and ALAT’s command of the Japanese language adding that this
ability was very helpful in communicating with NPA officials and
facilitated getting things done. Representatives from the other two
NPA components made similar comments adding that, although they
had their own liaison in Washington, D.C. in order to obtain
information from U.S. law enforcement agencies, they often submitted
requests through the Legat office because the Legat provided a quicker
response.

       The International Criminal Investigation Division (ICID) of the
Tokyo Metropolitan Police investigates crimes committed by foreigners
in Tokyo. The Superintendent of the ICID told us he had frequent
contact with the Legat because many of the crimes the Division
investigated had a connection to the United States and because the
Legat was a frequent guest at FBI National Academy alumni events.
Since 1977, he said about 90 Japanese law enforcement officers had
graduated from the FBI Academy and about one -half of the graduates
worked in the Tokyo Metropolitan Police Department, many in high-
level positions. The Legat also had made a number of presentations at
the Metropolitan Police Department and at the Japanese National
Police Academy.

     The following are examples of Legat Tokyo’s liaison efforts and
accomplishments in Japan taken primarily from the Legal Attaché
Annual Accomplishment report.

_____________

       29
         Japan is divided into 47 prefectures, or administrative divisions,
comparable to U.S. states.


                                 50
                      REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED


   •   The Legat has obtained the cooperation of NPA and the Japanese
       Ministry of the Treasury in locating and freezing assets of
       persons and organizations suspected of conducting financial
       transactions with Al Qaeda-related organizations.

   •   In connection with the AMERITHRAX investigation, the Legat has
       contacted numerous scientific research and educational
       institutions in Japan and Taiwan to obtain information on these
       facilities’ experience with various biological and chemical agents.

   •   In conjunction with the Cleveland FBI field office, the Legat was
       involved in an economic espionage investigation of a Japanese
       scientific researcher employed at the Cleveland Clinic in
       Cleveland, Ohio. The researcher, along with another individual,
       was alleged to have engaged in the unauthorized removal of the
       contents of test tube ampules and replaced the contents with
       water. The contents were being used in the search for a cure for
       Alzheimer’s disease and were sent to a Japanese scientific
       research laboratory where the suspect was hired after he
       completed his assignment at the Cleveland Clinic. An arrest
       warrant was issued in May 2001 and the Legat has participated
       in efforts to have the subject extradited to the United States for
       trial, including taking statements from numerous witnesses
       under supervision of the Tokyo District High Court in June 2002.
       At the time of our visit to the Legal Attaché office, no decision
       had been made by the Japanese government regarding the
       extradition request.

   •   In preparation for a World Cup Soccer event held partially in
       Tokyo in the summer of 2002, the Legat worked with NPA to
       exchange intelligence information regarding the security
       arrangements for the event . The Legat also helped arrange NPA
       visits to FBI headquarters and the Salt Lake City field office so
       Japanese officials could view the security arrangements that had
       been undertaken there for the February 2002 Winter Olympic
       Games.

Conclusion

      Based on our review of the Legal Attachés in Canada, Germany,
Japan, and South Africa, we believe that the Legal Attaché program is
an important tool in the fight against terrorism and in helping the FBI
investigate and solve crimes that have an international connection.
                              51
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

Generally, the offices we reviewed appeared to be effectively
establishing liaisons and working cooperatively with foreign law
enforcement agencies. In our opinion, the FBI would likely experience
more difficulty obtaining needed information on international-related
investigations if it did not have Legal Attachés stationed abroad. In
our discussions with foreign law enforcement officials, it was readily
apparent that the ability of Legats to speak the host country’s
language as well as their ability to offer FBI National Academy training
slots greatly facilitated their standing in those countries and helped
foster effective liaisons.

       One difference between Legat Ottawa and the other Legats we
reviewed was that, because of Canada’s proximity to the United
States, FBI field offices near the border have for many years worked
directly with Canadian police authorities. This creates a potential for
conflict if the Legat, who is responsible for all FBI activities in Canada,
is not kept apprised of what field offices are doing. The Legat told us
that such a situation had occurred in the past; specifically, the Buffalo
field office had nominated Toronto police officials for training at the FBI
National Academy without his knowledge or input. FBI headquarters
officials provided documents after the exit conference which discussed
the establishment of a Border Liaison Officer in the Buffalo field office.
The Border Liaison Officer’s responsibility includes ensuring that
appropriate coordination occurs between Buffalo and Legat Ottawa.
Determining whether the Buffalo field office appropriately coordinates
all contacts in Canada with the Legat was beyond the scope of our
review. However, in our opinion the role of the Legat could be diluted
if Buffalo field office personnel are not coordinating their activities with
the Legat. Further, if the Toronto sub-office is ultimately opened, the
FBI could be perceived by Canadian authorities as being disjointed if
both the Legat sub-office and Buffalo staff are meeting with the same
Canadian authorities and not coordinating their efforts. In addition,
other FBI field offices near the Canadian border may have similar
contacts with their Canadian counterparts, all of which, in our opinion
should be coordinated with Legat Ottawa.




                              52
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Recommendation

     We recommend that the FBI:

4.   Ensure the Buffalo field office and all FBI field offices coordinate
     their training and investigative activities involving Canadian
     authorities with the Ottawa Legat.




                             53
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

CHAPTER 5: LEGAL ATTACHÉ OFFICES COORDINATE
           ACTIVITIES WITH OTHER U.S. LAW
           ENFORCEMENT AGENCIES OVERSEAS

       Besides the FBI, many other U.S. law enforcement and
intelligence agencies station personnel overseas and, as part of their
official duties, FBI Legal Attachés often interact with these individuals.
Overlapping interests and jurisdictions among these agencies could be
harmful to U.S. interests and run the risk of antagonizing the host
government. Moreover, a lack of coordination among law enforcement
agencies abroad could be detrimental to the ability of the United
States to effectively combat international crime and terrorism. To
avoid such problems, statutes as well as agreements between
agencies typically delineate their responsibilities overseas. In addition,
U.S. Ambassadors are responsible for ensuring that overall law
enforcement activities are coordinated. In addition, the FBI’s Legal
Attaché Manual emphasizes the importance of maintaining effective
liaisons with other U.S. law enforcement and intelligence agencies
abroad.

       To determine if FBI Legal Attachés were appropriately
coordinating their activities, we interviewed the Ambassadors, their
staff, and representatives from selected U.S. law enforcement and
intelligence agencies in Canada, Germany, Japan, and South Africa.
These officials uniformly described their interactions with the Legal
Attaché offices as positive and they mentioned that the Legat
personnel readily collaborated, shared information, and coordinated
their activities with them to avoid duplication of effort.

U.S. Law Enforcement Presence in American Embassies

       The U.S. law enforcement presence in an embassy abroad is
often significant. Embassies have special agents from the Bureau of
Diplomatic Security within the State Department assigned to
embassies and consulates as Regional Security Officers (RSOs). They
advise the Ambassador on all security-related matters and manage
programs for dealing with threats to the embassy from criminals,
terrorists, and hostile intelligence agencies. They also serve as a
liaison with the host country’s law enforcement agencies and conduct
law enforcement investigations on behalf of other U.S. law
enforcement agencies—typically agencies that do not have their own
agents posted to the host country.


                             54
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

      The number of other law enforcement agencies assigned to a
diplomatic mission varies, depending on the law enforcement issues in
that country or region. In addition to an FBI Legal Attaché, an
embassy may have law enforcement representatives from agencies
such as the Drug Enforcement Administration (DEA) and the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) within DOJ and
Immigration and Customs Enforcement (ICE), the Secret Service, and
the Transportation Security Administration (TSA) from the Department
of Homeland Security. In addition, the Central Intelligence Agency
(CIA) collects intelligence information and carries out
counterintelligence activities in foreign countries [CLASSIFIED
INFORMATION REDACTED]. Finally, the U.S. military often has
investigative and counterintelligence agents in countries, such as
Germany and Japan, where it maintains military installations.

Overlapping Jurisdictions Create a Potential for Conflict

       Many law enforcement agency functions and activities are
authorized by Executive Order or Congressional mandate and this
authority sometimes results in more than one law enforcement agency
having jurisdiction for the same crime. Overseas, these overlapping
interests create a potential for separate, uncoordinated cont acts with
the same host country law enforcement and intelligence authorities
that could adversely affect U.S. foreign relations and could harm
overall U.S. efforts to fight crime and terrorism. Thus, the
responsibilities of Legal Attachés and other U.S. law enforcement and
intelligence agencies overseas must be clearly defined and their
activities need to be coordinated.

      Various statutory mandates and agency agreements delineate
law enforcement and intelligence responsibilities abroad. For example,
by Executive Order 12333, dated December 4, 1981, the CIA is
responsible for the conduct of counterintelligence activities outside the
United States and the coordination of counterintelligence activities by
other agencies abroad, including the FBI. Thus, Legal Attachés are
required by the Order to conduct their counterintelligence activities in
coordination with the CIA. Similarly, while both the FBI and the DEA
have authority under Title 21 of the Code of Federal Regulations to
investigate violations of the drug laws, the DEA is responsible for
conducting drug investigations in foreign countries. Consequently,
requests for foreign assistance on FBI drug investigations must be
coordinated with the DEA.



                             55
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

The Role of the U.S. Ambassador

       By statute and Presidential Directive, the U.S. Ambassador has
complete responsibility for the actions of all U.S. Executive Branch
officials and organizations, including law enforcement agencies such as
the FBI Legal Attaché office, in the country to which he or she has
been accredited.30 All law enforcement personnel are considered part
of the U.S. Embassy staff, and the senior representative from each law
enforcement agency that has personnel assigned to an embassy
reports to the Ambassador.

      Ambassadors play a key role in helping to ensure that the
sometimes overlapping interests of law enforcement and intelligence
agencies are appropriately coordinated. Law enforcement agencies
having employees in a country are required by Section 207(b) of Public
Law 96-465 to keep the Ambassador to that country fully and currently
informed of all activities and operations of its employees and to
comply fully with all applicable directives of the Ambassador. To
coordinate law enforcement activities, Ambassadors have a team,
consisting of the senior representatives of the federal law enforcement
agencies assigned to the embassy and usually chaired by the Deputy
Chief of Mission, to provide a forum in which to share law enforcement
information and coordinate efforts to combat terrorism. Members of
the team participate in duties including emergency action committees
to organize embassy response to terrorist threats and incidents, and
formulation of the components of the embassy’s mission performance
plan that coordinate embassy activities related to law enforcement and
terrorism issues.

Legal Attachés Coordinate and Collaborate
With Other U.S. Law Enforcement Representatives

       In the four Legat territories we reviewed, we interviewed the
Ambassadors, other embassy officials, selected representatives from
law enforcement agencies stationed in the embassies, [CLASSIFIED
INFORMATION REDACTED], and in Germany and Japan, officials from
U.S. Military investigative agencies.31 The consensus among these
officials was that the Legats and their staff in these countries readily
_____________
      30
        Ambassadors do not have authority over those personnel who are under
the command of a U.S. area military commander.

      31
           See Appendix III for a listing of our contacts at each location.


                                 56
                      REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

collaborated and shared information on law enforcement matters. Law
enforcement representatives told us that especially since the terrorist
attacks on September 11, 2001, they were working closer with their
counterparts in the embassies than ever before. Some pointed out
that even before September 11, the rivalries that based on their
experiences seemed common among law enforcement agencies in the
United States appeared much less prevalent in an Embassy setting.
None of the officials we spoke with expressed concerns about
duplication of effort between Legat activities and their agencies’
activities.

      We also attended two law enforcement team meetings, one in
Ottawa, Canada, and the other in Tokyo, Japan, to observe the
process; no meetings were scheduled at the other two embassies
while we were there. The Deputy Chief of Mission, the FBI Legal
Attaché, and representatives from other law enforcement agencies and
the [CLASSIFIED INFORMATION REDACTED] attended. We observed
that participants briefed the group on significant events, activities, or
investigative and intelligence issues within their jurisdiction.

       The following are examples of the comments made by U.S.
officials we interviewed in Canada, Germany, Japan, and South Africa
regarding the nature and frequency of their working relationships with
the FBI Legal Attachés and their opinions on how well the Legats
coordinated activities and shared information with them.

       U.S. Ambassadors – The U.S. Ambassadors to Canada,
Germany, Japan, and South Africa had uniformly positive views of the
Legal Attaché offices operating out of their respective embassies. The
Ambassador to Canada, for example, described the working
relationship and cooperation between the Legal Attaché, othe r U.S. law
enforcement agencies in Canada, and their Canadian counterparts as
seamless. Such cooperation was absolutely essential, he said, given
the lengthy border between the two countries and the extensive
amount of trans-border crime. The Ambassador added that the Legat
kept him apprised of the status of major FBI investigations affecting
Canada.

       In Germany, the U.S. Ambassador told us that the Legat kept
him informed on important law enforcement issues, such as the
activities of the numerous FBI agents sent to Germany in the
aftermath of September 11. The Ambassador to Japan was especially
complimentary of the Legat’s knowledge of law enforcement structure
and crime problems in Japan. During a meeting with several Japanese
                             57
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

businessmen, the Ambassador was told about certain underworld
figures involved in the Japanese banking industry. Needing more
information he consulted with the Legat, who promptly delivered a
detailed paper on the issue.

      The U.S. Ambassador to South Africa told us that the Legat
readily shared information with the other law enforcement agencies
represented in the Embassy. The Legat, the Ambassador said, was an
active participant on the Law Enforcement Team, often had the most
information to share, and typically went out of his way to offer
assistance to other members of the group.

       Regional Security Officers (RSO) – The RSOs we interviewed
advised that they had regular, often frequent contact with the Legal
Attachés, sometimes provided assistance on leads and cases, and said
that they readily exchanged information with each other. Some RSOs
mentioned, for example, that visitors to the Embassy sometimes
provided information on terrorism or criminal matters and such
information was promptly forwarded to the Legat. The RSO at the
American Consulate in Cape Town, South Africa, stated he sometimes
assisted staff from the Pretoria Legat by putting them in contact with
appropriate officials in Cape Town or by following up on leads in the
Cape Town area on their behalf. The Deputy RSO in Tokyo indicated
that while both he and the Legat in Tokyo maintained liaisons with the
Tokyo Police, the contacts and issues were different. Because the RSO
office was primarily concerned with the protection of the Ambassador
and the Embassy, its contacts were mostly with Tokyo police in the
precinct where the Embassy was located, while the Legat typically
maintained liaisons with higher-level officials in the police department
involving broader criminal matters.

      [CLASSIFIED INFORMATION REDACTED]

      [CLASSIFIED INFORMATION REDACTED]

      DEA – The DEA’s mission overseas is to conduct drug
investigations that impact the United States. To do this, DEA Country
Attachés conduct liaison with the organized crime and narcotic units of
foreign law enforcement agencies. By agreement between the FBI and
the DEA, the DEA is the first point of contact for drug investigations in
foreign countries and the DEA officials we interviewed in Canada,




                             58
                  REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

Germany, and Japan all agreed that the FBI Legal Attaché offices were
appropriately coordinating with their offices on drug-related matters or
investigations.32 However, they also indicated that such referrals were
relatively infrequent because since the events of September 11, 2001,
the FBI had been focused on counterterrorism and had little time to
pursue drug crimes.

       Other Law Enforcement Agencies – An ICE agent from the
former U.S. Customs Service in Germany stated that the FBI and ICE
meet with different law enforcement entities in Germany, so the two
agencies have little overlap. The ATF Country Attaché in Canada
stated that the ATF worked well together with the FBI in the Ressam
case. ATF was one of the first agencies to respond in this case and
afterwards they met daily with the FBI and U.S. Customs officials to
share information on this investigation. ATF also worked together with
the FBI on a case involving a person who wanted to blow up the
Alaskan pipeline. An ICE agent from the former INS in Canada stated
that his office had an outstanding working relationship with the Legat
staff, and communicated almost daily with them. He added that they
work closely together, and share information on a “need to know”
basis. The TSA Civil Aviation Security Liaison Officer in Japan, stated
that he contacts the Legat office about three or four times a week with
questions or to provide information. The two agencies would work
together in hijacking cases and in cases where DOJ evidence was
being transported through Japanese airspace. They would also
conduct a joint interview initially if a “person of interest” who was on a
“no fly” list arrived in Japan. A Secret Service agent assigned to the
Embassy in Berlin commented that he relays threat information to the
Legat office, and coordinates with the Legat office about the arrival of
visiting dignitaries.

      U.S. Military Agencies - A special agent with the U.S. Air Force
Office of Special Investigations (OSI) in Germany stated his office was
working three counter-intelligence cases with the FBI, and the FBI
Legat office had always been very responsive to their requests for
assistance. Also, the military commanders in the area liked having
“instant” access to the FBI. In Japan, an Air Force OSI official stated
that his office had worked well together with the Legat office on a code
breaker case. He said that the Legat dropped everything to get the

_____________
      32
           The DEA Country Attaché we met with in South Africa had recently arrived
in the country and, consequently, had had little interaction with FBI Legat staff.


                                59
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED

information that OSI needed quickly. Officials from the U.S. Naval
Criminal Investigation Service in Japan indicated they did not have a
lot of interaction with the Legat office because the investigations of the
two agencies tended to be mutually exclusive. Nevertheless, they had
collaborated on several espionage cases and had worked cooperatively
with FBI agents from other Legat offices in Australia and the
Philippines.

Conclusion

       Many U.S. law enforcement and intelligence agencies maintain a
presence abroad and FBI Legat staff often need to interact with
representatives from these agencies. Because law enforcement and
intelligence agencies often have overlapping interests and
jurisdictions, it is critical that they coordinate their activities. A lack of
coordination among law enforcement agencies abroad could be
detrimental to the ability of the United States to effectively combat
international crime and terrorism. In addition, the FBI’s Legal Attaché
Manual emphasizes the importance of maintaining effective liaisons
with other U.S. law enforcement and intelligence agencies abroad.

       Based on our discussions and observations in the embassies we
visited, it appears that the FBI Legat staff worked cooperatively and
appropriately coordinated their activities with other U.S. law
enforcement and intelligence agencies. Based on our review at these
four sites, it also appeared that there was little or no duplication of
effort between the Legats’ activities and the other law enforcement
agencies in these embassies.




                               60
                    REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED


CHAPTER 6: FBI OVERSIGHT OF THE LEGAL ATTACHÉ
           PROGRAM APPEARS ADEQUATE

       Based on our discussions with FBI headquarters personnel and
our limited review of office justifications and reporting processes, the
FBI’s overall oversight of the Legal Attaché program appears to be
adequate. The FBI periodically reassesses the need for offices abroad
and justifies the need for new Legal Attaché offices or changes in the
staffing or territories of existing offices. Once a Legal Attaché office is
opened, the FBI monitors the activities of the office through periodic
inspections, site visits, and various reports.

FBI Justification for Establishing and Maintaining Offices

      According to OIO officials, determining whether new Legal
Attaché offices should be opened or existing offices should be
expanded, realigned, or closed is an ongoing and normal part of
headquarters oversight. Among the factors considered in making
location and staffing decisions are:

   •   threat assessments of specific terrorist or criminal activity in a
       country or region that threatens the United States;

   •   the strategic location of the host country from a geographic,
       political, and economic perspective and the country’s respect for
       the rule of law;

   •   the commitment of the host country to cooperate with the FBI
       to advance investigations of unilateral and bilateral interest;

   •   analysis of workloads in existing offices and the ability of staff in
       these offices to cover areas beyond the specific country in which
       they are located;

   •   difficulty and cost of travel within a given territory;

   •   U.S. Ambassador or congressional interest in having a Legal
       Attaché office in a particular region; and

   •   the funding and resources available to the FBI to fulfill its
       mission.


                              61
                   REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

       Based on this ongoing review process, the FBI has opened new
offices or sub-offices or added staff to existing offices to address the
workload. For example, the FBI opened a Legat in Seoul, South
Korea, in 2000 because distance made it difficult for Legat Tokyo to
maintain the frequent face-to-face contact with Korean law
enforcement authorities that was necessary because of investigative
caseloads. In addition, in FY 2002 an ALAT position was reallocated
from the Mexico City Legat to the Ottawa Legat to help Ottawa
manage its backlog of pending leads (previously discussed in
Chapter 3). The same review process has been used to consolidate
offices when workload no longer justified keeping an office open. For
example, the FBI closed the Legal Attaché office in Montevideo in 1999
because the workload in that office was not sufficient to maintain a
presence in Uruguay. The positions in that office were reallocated to
the Legat office in Brasilia, which opened that same year and had a
greater amount of criminal activity affecting the United States.

      Once the FBI determines a need for a new Legal Attaché office or
a change needs to be made to the staffing level in an existing office, it
must seek approval from the appropriate U.S. Ambassador, the
Departments of Justice and State, the Office of Management and
Budget (OMB), and Congress. The process begins with informal
discussions with the Ambassador to determine if the Ambassador will
support the FBI’s proposal. If the Ambassador is supportive, the FBI
prepares a National Security Determination Directive 38 (NSDD 38)
proposal and submits it to the Department of State.

       Under NSDD 38, agencies must seek approval from the
Ambassador for any changes in size, composition, or mandate of
personnel operating under their authority at each diplomatic post.
Staffing changes include permanently increasing or decreasing the
staffing size at a given location, as well as establishing new offices or
shutting down existing operations. The NSDD 38 proposal specifies
the location of the proposed staffing change, titles and grades of the
positions, justification statements, and any support and cost
implications for the post. The FBI’s NSDD 38 proposals are reviewed
by the Department of Justice’s Office of International Affairs, the
Department of State, and the respective U.S. Ambassador. The FBI
initiates staffing of the Legat office once the NSDD-38 process has
been completed, providing that congressional approval and funding are
forthcoming. If funding is not approved, the FBI may reallocate the
needed positions from another Legat office. Subsequently, a
Memorandum of Understanding is entered into between the respective
U.S. Embassy and the FBI.
                             62
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

       In 1999, in response to a congressional request, the FBI
submitted assessments for existing and planned Legal Attaché offices.
The assessments identified specific criminal activities in the Legats’
territory that affected the United States, analyzed the impact of
criminal activity on U.S. interests and persons, and justified the
presence and/or need for enhancement of FBI resources. In our
opinion, these assessments were comprehensive and, along with other
information, identified the crime problems in the foreign countries that
had a conne ction to the United States.

       Later, the House Conference report 107-593, which accompanied
the “2002 Supplemental Appropriations Act For Further Recovery from
and Response to Terrorist Attacks on the United States” directed the
FBI to submit a report to the Congress on proposed new Legal Attaché
offices and existing offices to ensure that resources were being
deployed to the highest priority locations. The FBI’s report provided a
synopsis for each Legal Attaché office and included the FBI’s
conclusions about the staffing level at each location. While we did not
assess the conclusions for each office, based on our review of the
Legats in Berlin, Ottawa, Pretoria, and Tokyo, we agreed with the
reports conclusions for those four offices. According to the report, the
staffing levels in Legats Pretoria and Tokyo were adequate for the
workload. In contrast, the heavy use of temporary duty personnel in
Legats Berlin and Ottawa was expensive and did not provide needed
continuity in more complex investigations —which was consistent with
what we found when we reviewed these two offices. Thus, the report
proposed increasing the permanent staff at both locations to better
address the workload.

Oversight of Offices

       With Legat offices located all over the world, headquarters
oversight can be a challenge. Time zone differences can make it more
difficult to communicate and making site visits can be expensive and
time consuming. Nevertheless, it is critical that FBI headquarters
monitor the overall program. Legats are required to provide periodic
reports on their activities and respond to inquiries. In addition, both
OIO and Inspection Division staff periodically make on-site reviews of
Legat operations.

     FBI Headquarters requires each Legal Attaché office to prepare
and submit a Legal Attaché Annual Accomplishment Report (LAR). The
LAR reports provide detailed information about the office’s operations
and accomplishments for the past year. For example, the reports
                             63
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

include information on the law enforcement structure of the host
country; the Legats’ liaison contacts; detailed threat assessments;
major case information; FBI personnel temporarily assigned to the
office; and travel, personnel, and other matters handled throughout
the year. In addition, the LAR identifies the offices’ goals and
objectives for the upcoming year. OIO officials use these reports to
monitor offices’ accomplishments and told us they were currently
examining ways to make these reports more consistent and useful.
For example, OIO officials said that some of the information in the LAR
could not be easily summarized in order to respond to congressional
requests for information on the Legat program.

      To better keep abreast of Legats’ workload, OIO, starting in
May 2003, began analyzing each Legat office’s pending leads on a
quarterly basis. The results of the analysis are provided to the
applicable Legat office and problems identified must be explained or
resolved. For example, the Legats are required to provide
explanations of their efforts to resolve leads pending for more than
360 days.

      OIO officials told us they maintain regular telephone and e-mail
contact with Legat offices. Every Monday morning, OIO managers
meet to discuss significant issues or problems that have arisen in
Legat offices over the weekend that need their attention. OIO officials
also told us they obtain feedback on Legat offices from the
[CLASSIFIED INFORMATION REDACTED], Ambassadors, Regional
Security Officers, and foreign law enforcement officials visiting FBI
headquarters.

       Annually, OIO hosts a conference in Washington, D.C. attended
by all the Legal Attachés. We attended the conference held in
November 2002. A variety of topics were covered including recent
changes in the FBI and the impact of these changes on the Legat
program, counterterrorism, criminal, and security issues relevant to
operations abroad, and Legat performance expectations and career
development.

       The FBI’s Inspection Division conducts in-depth reviews of the
activities of individual Legal Attaché offices, normally on a 3-year
cycle. We noted that this cycle was adhered to for three of the four
offices we reviewed—Berlin, Ottawa, and Tokyo. Pretoria, the fourth
office was opened in 1997 and was inspected in 1999. A subsequent
inspection was scheduled for 2003, but was postponed due to other

                             64
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Bureau commitments and a pending assessment of the inspection
process for Legat offices.

      The inspections include a review of management issues, staffing,
administration, liaisons, workload, and training matters. The reports
comment on the effectiveness and efficiency of the Legal Attaché.
When an inspection is completed, a report is issued with
recommendations that must be addressed in writing by either the
Legal Attaché or, in some instances, FBI headquarters.

      OIO managers told us that in the past, Inspection Division
reviews of Legat offices were conducted using the same guide used for
reviewing domestic offices. Consequently, some of the areas covered
during these inspections were not relevant to Legat operations.
Recognizing this problem, OIO met with staff from the FBI’s Inspection
Division in order to revise the guide used for foreign operations. As of
November 2003, OIO officials told us that the Inspection Division had
recently tested the revised guide at two Legat offices.

      We followed up on 26 of the 31 findings from the latest
Inspection Division reviews of Legats Berlin, Ottawa, Pretoria, and
Tokyo. These findings involved noncompliance with FBI requirements
in areas such as security, financial management, property
management, personnel, and administration. We concluded that the
FBI had taken appropriate corrective action for most of the findings,
with the exception of a finding related to the staffing problems in
Ottawa, which we previously discussed in Chapter 3. However, we
found no evidence to confirm that corrective action had been fully
implemented related to changing safe combinations in Ottawa and
conducting unannounced cash counts of the imprest fund in Tokyo.

       Apart from the more formal inspection process, OIO managers
told us that they made site visits to the Legal Attaché offices where
they reviewed such matters as staffing levels and management and
administrative issues. They also spoke with U.S. embassy and foreign
law enforcement personnel about the Legal Attaché’s liaison efforts.
However, these reviews were not conducted on a regular basis. We
found documentation supporting OIO site visits for only two of the four
offices we reviewed. OIO officials acknowledged in November 2003
that their managers needed to make more systematic site visits. They
said they were in the process of developing a schedule of OIO site
reviews so that either the Inspection Division or OIO would review
each office every 18 months.

                             65
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


Conclusion

       The assessment of the number, location, and staffing of Legat
offices is an ongoing process that takes into account multiple factors.
Based on these assessments, the FBI has expanded, realigned, and
even closed Legat offices. Any such changes cannot be made without
approval from the Departments of Justice and State, the Office of
Management and Budget, and Congress. Once a Legal Attaché office
is opened, the FBI provides oversight and monitors the activities of the
office through periodic inspections , site visits, and various reports. In
addition, FBI management officials said that they were taking
additional steps to improve oversight of the program. Based on our
limited review, we believe that the FBI justifications substantiated
their location decisions for Legat offices and their oversight of these
offices seemed adequate.




                             66
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

CHAPTER 7: SELECTION AND TRAINING OF LEGAL
           ATTACHÉ STAFF

       The individuals selected for Legat Attaché and ALAT positions are
the FBI Director’s personal representatives abroad. The Special
Agents selected for these positions are highly visible and shoulder
considerable responsibility, which if not managed appropriately could
result in an international incident and potentially harm the FBI’s
credibility. In addition, Legats and their staff must quickly adjust to
living and working in a foreign culture that may be much different from
conditions they are used to in the United States. Further, in some
countries working and living conditions may be highly stressful and
their personal safety may be at risk. Thus, the FBI not only needs
highly skilled and experienced agents but also agents who can function
independently and effectively in often stressful foreign environments.

Process for Selecting Candidates for Legat Positions

      According to OIO officials, persons selected for Legat positions
need to possess certain characteristics and skills. OIO seeks personnel
with a proven history of working in a multi-cultural, multi-task force
environment who are skillful in dealing with personnel issues. They
also should be seasoned investigators with broad-based knowledge of
the FBI’s programs and skilled managers preferably with field office
supervisory experience. These individuals should be self-motivated,
versatile, possess exceptional interpersonal and liaison skills, and be
able to work with a wide variety of people in a foreign environment.
Individuals should demonstrate good judgment and common sense
and need minimal guidance and direction from FBI headquarters. In
addition, the FBI requires individuals to have proficiency in one or
more languages used in an office’s assigned territory.

       When an opening occurs for a Legat or ALAT position, a vacancy
announcement is prepared and posted on ACS. The announcement
identifies the position and the location, application instructions, and
the deadline for applying. It also specifies minimum and preferred
qualifications. For example, the minimum qualifications for eligibility
to apply for any Legat position are 3 years FBI investigative
experience, one-year relief supervisory experience,33 and a current
_____________
       33
           A relief supervisor in the FBI is a agent who serves as a backup for a
supervisor.


                                 67
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

“meets expectations” performance appraisal.34 The preferred
qualifications include such factors as broad-based investigative
experience, supervisory experience, language proficiency,
communication skills, previous overseas experience, and FBI
Inspection Division experience. These preferred qualifications can be
ranked differently based on the particular needs of an overseas office.

       Applicants are asked to submit a description of their experience
that addresses the minimum and preferred qualifications along with a
recommendation letter from their division head or the Special Agent in
Charge. The letter must indicate whether the division head
recommends, highly recommends, or does not recommend the
candidate and it also must include comments on the candidate’s
qualifications for the job advertised as well as the individual’s
leadership ability, interpersonal skills, and potential for advancement.

       Application packages are reviewed by a Legat Screening Panel
(LSP). The panel, consisting of senior FBI managers and analysts from
various FBI divisions, reviews the applicants’ packages and ranks the
candidates against the qualifications contained in the vacancy
announcement, submitting the top ranked candidates to a second
panel, known as the Special Agent Mid-Level Management Selection
(SAMMS) Board. The SAMMS Board, whose members include the
Deputy Assistant Directors of the Criminal Investigative,
Counterintelligence, Counterterrorism, Cyber, and Inspection
Divisions, may agree with the LSP rankings or come up with its own
ranking based on review of the candidates. The head of OIO can
appeal to the SAMMS board if he or she disagrees with the Board’s
rankings.

      The SAMMS Board recommends the top three candidates in rank
order to the FBI Director. The Director interviews one or more of the
Legat or ALAT candidates and makes the final selection. Reflecting the
growing importance of the Legat program, the Director has
commented that he wants his future leaders to have international
experience.

     Between January 2001 and April 2003, a total of 84 vacancy
openings for Legat or ALAT positions were announced. To determine if

_____________
       34
           FBI agents are evaluated on a pass/fail basis with “meets expectations”
signifying acceptable performance.


                                68
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

the FBI was selecting agents for Legat and ALAT positions in
accordance with its procedures, we judgmentally selected the files for
13 of these vacancies. We reviewed the vacancy packages to
determine whether the applicants met minimum qualifications, the
degree to which they met preferred qualifications, whether the LSP
and the SAMMS board appropriately ranked the candidates, and
whether these ranking decisions were appropriately documented.
Based on our review, we concluded that the FBI was following its
procedures.

      According to an OIO official, the FBI is implementing a ne w
agency-wide promotion system starting in FY 2004. Applicants for any
GS-14 position, including an ALAT, or non-Assistant Special Agent in
Charge GS-15 position, such as a Legat, must take and pass a test
which will measure their aptitude and abilities to handle managerial
positions.

FBI Acknowledged Some Past Staffing Decisions
Could Have Been Better

      Officials from OIO told us that in prior years, when the Legat
program was growing rapidly, some mistakes were made in staffing
Legat positions. While not providing specific examples, the officials
told us that some agents selected for positions abroad lacked the
management skills and judgment needed to handle overseas
assignments properly. In some instances, individuals were selected
who did not have management or supervisory experience. Instead,
they were picked primarily because they spoke the language of the
host country. This lack of experience sometimes resulted in poorly
managed offices. In some cases, incidents occurred that were serious
enough to cause the employees to be recalled to the United States,
while others were not granted extensions to their tours of duty.
Moreover, relationships with Embassy officials and foreign law
enforcement agencies sometimes needed to be repaired. Officials
believed that the current selection process, which places considerable
weight on supervisory experience, should help avoid some of the
problems that occurred in the past.




                             69
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

Misconduct by Some Legat Staff is a Concern

       An Office of Professional Responsibility (OPR) official stated that,
in his opinion, the number of OPR investigations of Legat personnel
was higher than would be expected given their small number and
attributed this problem to past staffing decisions. This official added
that Legat staff represent the FBI overseas and should be role models
rather than subjects of OPR investigations. Another OPR official
attributed the situation to the fact that the Legats operate
independently and tend not to be closely supervised by headquarters.
In contrast, an OIO official said he did not believe OPR investigations
of Legat staff were any more prevalent than for any other FBI division.
However, during a conference for Legal Attachés held in
Washington D.C. in November 2002, this same OIO official stated
before the group that he was spending too much time dealing with
OPR-related issues.

      To obtain an understanding of the kinds of allegations involving
Legat staff, we asked OPR to provide us with the investigative files
opened on Legat staff between September 1999 and September 2002.
OPR provided us with 12 cases. Officials said they did not know if
these were all the cases opened during this period because their
database did not identify the position held by the person under
investigation. Consequently, OPR officials relied on their recollection
to identify investigations involving Legat employees.35

      These 12 OPR investigations involved 24 alleged offenses against
13 employees. All but one of these employees was either a Legat,
ALAT, or Office Assistant. The remaining individual was an employee
on temporary duty. The following table summarizes the allegations
and the examples provide more details.



_____________
       35
          Subsequent to our exit conference another OPR official contradicted what
we were originally told stating that the OPR’s databases do identify Legat staff who
have been subject to an investigation. As a result, OPR provided a list of 17
additional cases that had been opened on 15 Legat personnel involving 34 alleged
offenses during our review period. In addition, the OIG Investigations Division,
which has first priority in investigating allegations against certain FBI personnel,
provided us with allegations against two more Legat personnel. We did not review
the case files for these additional cases.



                                 70
                      REDACTED AND UNCLASSIFIED
               REDACTED AND UNCLASSIFIED

                      EXHIBIT 5-2
      ALLEGATIONS AGAINST LEGAT STAFF INVESTIGATED
  BY OPR BETWEEN SEPTEMBER 1999 AND SEPTEMBER 2002

            ALLEGATION                 NUMBER OF INSTANCES
Security violations                             8
Inappropriate relationships                     4
Waste, misuse of government                     2
property
Inappropriate release of information            2
Voucher fraud                                   5
Misuse of position                              1
Violation of rules/regulations                  2
TOTAL                                          24
Source: OPR investigative files.

       •   A Legat obtained a $40,500 advance from the FBI for
           educational expenses for his children at the foreign
           post in October 2000. Later, he submitted a request to
           the Department of State (DOS) seeking payment for
           the same tuition and DOS paid $32,520 directly to the
           educational institutions in January 2001. OPR opened
           an investigation after learning of the duplicate
           payment. The Legat did not return the advance to the
           FBI until August 2001 after he had been reminded to
           do so on two occasions. As a result of the OPR
           investigation, the Legat received counseling and was
           warned to avoid similar situations in the future that
           could reflect negatively on him, and by extension the
           FBI.

       •   Another Legat was alleged to have misused his
           government credit card and submitted fraudulent travel
           vouchers. The Legat routinely requested
           reimbursement for taxi rides in the amounts of $15 to
           $19 above actual incurred costs for a total of $360 over
           a 2-year period. OPR officials advised us that the
           allegations were substantiated and the Legat was in the
           process of being dismissed.

       •   Allegations against an ALAT included misuse of his
           government credit card, disclosure of sensitive and
           classified information to non-FBI officials, failure to
           report contacts with foreign nationals, commingling of
           personal and Bureau funds, borrowing money from the
           office imprest fund, and sending classified information
                          71
               REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

               over an unsecure facsimile machine. Because of these
               allegations, the ALAT was returned to the United States
               and he subsequently resigned from the FBI.

     As of October 2003, all of these investigations had been
completed and 19 of the 24 allegations were substantiated against 12
employees. These OPR investigations resulted in five employee
suspensions, three letters of censure, two employees receiving
counseling, one dismissal, and one resignation.

Increasing Recognition of the Value of Legat Experience

       In our discussions with FBI personnel, some said that historically
the perception was that employees assigned to Legat offices were part
of a “wine and cheese circuit,” that did not involve substantive
investigative work. Others remarked that Legats had sometimes been
appointed to these positions as a consolation for not being promoted
to other positions, or as a reward for long service near the end of their
careers. Because of the perception of the Legat program, some Legat
staff had difficulty finding career enhancing positions after they
returned to the United States, according to one OIO official.

      However, this perception appears to be changing. The growth in
international crime and terrorism in recent years has resulted in more
FBI agents being sent overseas to work on major investigations and
these agents often interact and work closely with the Legat staff. The
FBI agents sent on temporary assignment are increasingly realizing
that the Legat work is demanding, substantive, and essential,
according to OIO and other headquarters officials. As more FBI agents
experience first-hand the importance and value of the Legat’s work,
they are increasingly applying for Legat positions. An official from the
Counterterrorism Division, who also sits on the SAMMS Board, agreed
that more employees are applying for Legat vacancies than ever
before and, as a result, the FBI has a better pool of candidates from
which to choose.

       In addition, an increasing number of returning Legat staff are
being selected for leadership positions in the FBI, according to OIO
officials. For example, they said 37 ALATs and Legats received
permanent promotions at the GS-14 and 15 levels, respectively, in
FY 03. In addition, three returning Legats were promoted to Assistant
Special Agent in Charge positions. These promotions were significantly
higher than what has occurred in the past and the officials believed

                             72
                  REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

this success was partially attributable to their intensified efforts to
promote the value of the Legat experience.

Pre-Deployment and Foreign Language Training for Legat Staff

       When we initiated this audit, officials from the FBI’s Inspections
Division told us that they were beginning an in-depth review of the
pre-deployment training program, including language training for
newly assigned Legat staff. Consequently, we limited our review of
the training program to understanding what type of training is
provided and interviewing selected Legat staff in the four offices we
reviewed to obtain their views about the training. We also determined
the extent to which Legat employees had proficiency in a foreign
language.36 At the time of our audit, over one-third of Legat staff did
not meet the FBI’s foreign language proficiency goals. The FBI
Inspection Division’s analysis identified similar issues with language
training as well as other problems with pre-deployment training and
made 12 recommendations for improvement (see Appendix V).37

      Pre-Deployment Training - The FBI has a 3-week pre-
deployment training program for agents and support staff who have
been selected for assignment to Legal Attaché offices. The first we ek
of the training is designed to provide newly appointed Legat personnel
with administrative information, and policies and procedures
associated with working in a Legat office and living in a diplomatic
mission overseas. Topics covered this first week include personnel and
housing matters, overseas allowances and vouchers, Legat computer
equipment and applications, Department of State billings and
payments, security, extraterritorial guidelines for informants, language
services and programs, evidence cont rol, employee conduct, and the
roles and responsibilities of the Department of Justice’s Office of
International Affairs, the FBI’s Inspection Division, Office of
Professional Responsibility, and Health Services Unit.

      Also during the first week of training, the Legats and the ALATS
receive individual briefings from the substantive units at FBI
headquarters about programs and investigations that may have an
_____________
      36
           We obtained language test scores for Legat staff as of March 27, 2003.

      37
          FBI Inspection Division Report: Legal Attaché Pre-deployment Training:
An Evaluation of the Preparation of FBI Personnel for Overseas Assignment,
Reengineering Project Number 35, July 2003.


                                 73
                      REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

impact on their geographic area of responsibility. For example, they
may receive briefings from the Counterterrorism Division if terrorism
matters are prevalent in their region. While these briefings occur for
the agents, the office assistants receive detailed briefings about
administrative matters, such as the field support account, property
inventory records, and diplomatic pouch preparation techniques. In
addition, if the support staff lacks sufficient familiarity with the ACS
system, arrangements are made for additional training in using the
system.

      During the second week of training, agents and support staff
attend a Legat Security Awareness course in Quantico, Virginia.
Spouses are also encouraged to attend this class. The training
includes discussions and exercises relating to surveillance detection;
terrorist threat recognition; hostage survival; defensive tactics; and
vehicle, residential, and hotel security.

      During the final week, Legat staff attend a 2-day training class at
the Department of State’s Foreign Service Institute called Introduction
to Working in an Embassy. The course includes presentations on
working in an embassy or consulate, the role of the ambassador,
working with foreign service nationals, embassy protocol,
administrative support within an embassy, and crisis management.
Agents also receive detailed briefings from analysts and desk officers
at the Department of State [CLASSIFIED INFORMATION REDACTED]
related to the economic, political, and leadership of the countries and
areas to which they will be assigned.

       In addition to the 3-week pre-deployment course, agents are
encouraged, but not required to take other classes offered by the
Foreign Service Institute. Further, newly selected agents who have
not worked overseas before and will be assigned to a newly
established office are normally required to complete a temporary duty
assignment in an established office where they receive on-the-job
training. Agents assigned to existing Legat offices normally do not
complete a temporary duty assignment, even if they have no overseas
experience, because they receive on-the-job training at the existing
office.

       We asked selected Legat staff at the four offices we reviewed
about the training they had received in preparation for their
assignment. One office assistant told us that the State Department
training on the automated systems used in an embassy environment
was too cursory. In general, however, both the agents and support
                              74
                   REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

had positive comments about the training. These views were in
contrast to what the FBI Inspection Division was told by a focus group
of both former and current Legat staff as reported in its July 2003
report. The inspection report noted that the focus group participants
expressed disappointment with most briefings they had received from
FBI headquarters operational divisions. These briefings, which were
supposed to address the crime problems and investigative concerns in
the countries and territories to which the agents were to be assigned,
were described as short, generic, and superficial. Some focus group
participants added that the briefings were often provided by persons
with little knowledge of these countries and, as a result, the
information was of little use once they arrived at their office of
assignment.

       According to the inspection report, the focus group participants
also indicated that they did not believe the pre-deployment training
program adequately prepared newly selected Legat staff for the
difficulties of adjusting to life overseas. This was especially true in
hardship posts where the quality of life was very poor relative to the
United States. Not all Legat personnel or their dependents were able
to adapt quickly or easily to a foreign environment and those who did
not often felt isolated, lonely, and depressed. The consensus among
the focus group participants was that the FBI’s Employee Assistance
Program was not doing enough to reach out to Legat employees, not
only before they departed overseas but also during their tours of
duty. 38

        Other issues were noted in the FBI’s inspection report. Funding
for the pre-deployment training was noted as insufficient and training
facilities were inadequate. As an example of the latter, the report said
that Inspection staff had witnessed agent and support employees
receiving computer training in a room about the size of a walk-in
closet, with some employees having to sit in the doorway while the
instructor demonstrated Legat office computer operations. Another
issue related to the temporary duty assignments provided to certain
agents selected for positions in newly established offices. The
inspection report suggested, based on focus group comments, that
these assignments be expanded to others who had been selected for
Legat assignments. This would not only provide them with on-the-job

_____________
       38
           An Employee Assistance Program is a professional counseling and referral
service designed to help employees with personal, job, or family problems.


                                75
                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

training but also gives OIO the opportunity to determine how well the
employees performed in a foreign environment before they were
posted overseas.

       Language Training – FBI employees selected for Legat
positions where proficiency in a foreign language is considered
necessary can obtain language training through OIO’s Language
Service Section. A Language Services official told us this training can
take various forms including self-study materials, formal classroom
training, and tutors. While intensive courses are available from the
Defense and State Departments and the CIA, FBI agents seldom
attend because the courses are lengthy and not enough time is
available between the time staff are selected and when they transfer
overseas. According to this official, Language Services typically has
about 3 months on average to work with newly selected Legat staff on
foreign language training before they are transferred overseas, but the
staff also have the opportunity to receive further training while in the
foreign country.

      In our opinion, three months does not appear to be sufficient
time to learn a foreign language. This view was echoed by the
Inspection Division’s July 2003 report. The report concluded that
Legat personnel were not selected far enough in advance to
successfully complete a course in foreign language training that would
enable them to conduct business at a functional level in the host
country language. Depending on the complexity of the language,
anywhere from 9 months to 2 years of full-time training was needed to
attain proficiency, according to Language Services officials interviewed
by the Inspection Division. Other agencies contacted by the
Inspection Division, such as the State and Defense Departments and
DEA, reported providing more extensive language training for staff
assigned overseas and more lead time to complete it. For example,
selections for DEA country attaché positions in Asia and the Middle
East are made at least 18 months in advance to permit at least 1 year
of language training, the Inspection report noted.39

      Foreign language ability is measured according to the federal
Interagency Language Roundtable Skill Level Description, or IRL scale

_____________
       39
           DEA Country Attachés carry out investigative and liaison activities in
foreign countries related to U.S. drug laws.



                                 76
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED

level. The IRL scale measures foreign language ability in areas of
listening, reading, speaking, and writing on a scale of zero to five, with
five being the highest rating. For example, a person with a level 2
speaking proficiency would have sufficient capability to meet routine
social demands and limited job requirements. A person with a level 4
speaking ability, on the other hand, would be able to use the language
fluently and accurately on all levels normally pertinent to professional
needs. According to the FBI’s Legal Attaché Manual, the foreign
language requirements for a Legat and ALAT are a level 2+ or above.
While no proficiency level is specified for support personnel, the
Manual states that they should have foreign language qualifications
relevant to the office to which they are applying. In contrast the FBI’s
Manual of Administrative Operations and Procedures, Part 1, Section
22-2.5.1, states that the foreign language proficiency goals for Legats
and ALATs in speaking, listening, and reading are levels 3, 3, and 2,
respectively. For office assistants, the goals are level 2 for speaking
and listening and level 1 for reading. However, according to a
Language Services official, Legat staff currently are only tested for
their speaking skills.

       To see how closely the FBI was meeting these goals, we
obtained information from the CIA’s World Factbook on the official
languages spoken in the 46 countries where the FBI has Legat staff.40
In 11 of these countries, English is considered one of the official
languages, while in 11 others English is spoken by some elements of
the population. For the remaining 24 countries where the FBI has
Legat staff, English was not identified as one of the languages spoken.
Thus, it is these countries where a mastery of the host country
language by Legat staff is most likely to be necessary in order to
effectively carry out their duties.

       We also obtained information on the language skills of the
97 FBI staff stationed in the 24 countries where English is not the
primary or secondary language. Our analysis of this data using the
criteria specified in the Legal Attaché Manual showed that 22 of the
staff, or about 23 percent, had no speaking skill applicable to the
language of the host country or the territory covered by the Legat
office. In addition, 14 agents had some language skills pertaining to
that area, but did not meet the oral language goals as stated in the

_____________
      40
          The World Factbook, prepared by the Central Intelligence Agency, provides
information on foreign countries for use by U.S. government officials.


                                77
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

FBI’s Legal Attaché Manual. In total, 36, or over one-third, of the
97 Legat staff assigned to these countries did not meet the FBI’s
language goals.

       Vacancy announcements for Legat and ALAT positions in non-
English speaking countries usually include language proficiency as a
qualification factor. However, language is almost never the most
important selection factor, according to OIO officials, because other
factors such as investigative and supervisory experience are
considered more essential. OIO officials added that if documents or
tapes of conversations need to be translated, they could be sent to
Language Services for transcription or translators or linguists (with the
appropriate security clearances) could be hired.

       While the use of translators and linguists may sometimes be
unavoidable, we believe that the FBI’s priority should be to ensure that
staff selected for Legat positions who lack appropriate languages skills
are given sufficient time and training to acquire them. We observed
the value of language proficiency firsthand during our visit to Japan.
The Legat and ALAT were fluent in the Japanese language. Based on
our discussions with Japanese officials and our observations of the
Legat staffs’ interaction with these officials, it was apparent the
agents’ mastery of the Japanese language went a long way in fostering
strong relationships and cooperation. One Japanese law enforcement
official remarked, for example, that current Legat personnel were more
proficient in the Japanese language than their predecessors and, as a
result, a strong level of rapport had been developed.

Some Legat Staff Remain Abroad For Long Periods of Time

       To ensure that FBI personnel do not lose contact and familiarity
with the changing practices and priorities of the FBI as well as
concerns that extended tours of duty abroad could result in a security
risk, the FBI places limits on the length of time staff can remain out of
the country. FBI personnel are limited to no more than five
consecutive years abroad in one location or six consecutive years in
two locations. However, exceptions to these limits are permitted
when, according to the Legal Attaché Manual, the needs of the FBI
would best be served by an extension. Duration of such an extension
should not exceed two years. In addition, according to an OIO official,
prior to 1997, there was no tour of duty limit for support staff.




                             78
                  REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      We examined the tours of duty for 370 FBI agents and support
personnel assigned to Legat offices since October 1, 1996. Our
analysis indicates that 29 employees have remained abroad for long
periods of time. Specifically, we found 21 agents and support staff
who had remained overseas for more than 6 consecutive years. Of
these, five employees had remained abroad for more than 10
consecutive years. In addition, 8 agents and support staff will have
been overseas for more than 6 years if they complete their current
tours of duty.

        OIO officials recognized that some Legat staff had been abroad
too long and said that some Legat staff had recently been denied
extensions. Further, they acknowledged that, in the past, the tour of
duty limits were not always enforced. However, in the “post-Hanssen
era” concerns have been raised by the FBI’s Security Division about
FBI employees remaining abroad too long and becoming a security
risk. 41 In addition, an OIO official said he was concerned about
personnel becoming too complacent and overly familiar in their
relationships with foreign officials when they stay abroad for extended
periods of time in one location. Nevertheless, at the exit conference
an OIO official said that exceptions would still need to be made in
exigent circumstances with the concurrence of the Security Division.

      Given the need to reduce the risk of personal security exposure
inherent in long tours of duty abroad and the apparent increasing
interest and exposure among FBI employees in the Legal Attaché
program, which is likely to attract more candidates, we believe that
extending tours of duty beyond established limits should be kept to a
minimum.

Conclusion

      Legal Attachés and their staff represent the FBI abroad and have
increasing responsibility in accomplishing the FBI’s mission given the
globalization of crime and terrorism. Staff selected for these positions
need to be highly skilled and experienced and should be able to
_____________
      41
          FBI agent Robert Hanssen, who was discovered spying for the former
Soviet Union and then for Russia, pled guilty to 15 counts of espionage and
conspiracy in July 2001 and was subsequently sentenced to life in prison without
parole. In the wake of the Hanssen case, the FBI has begun to implement stricter
security requirements.


                                79
                     REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

function independently and effectively in stressful foreign
environments. Currently, the FBI has an adequate process in place for
selecting qualified agents for Legat positions, but acknowledged that in
the past some poor staffing decisions had been made.

      The Legat program was previously perceived by many within the
FBI as a position that was not career enhancing. However, this
perception appears to be changing as more FBI agents spend time
overseas on investigative activities and realize the demanding,
substantive, and essential nature of Legat work. In addition, the FBI
Director has stated that he wants future FBI executives to have
overseas experience and a clear understanding of international
operations.

       The FBI provides pre-deployment and language training for staff
selected for Legat positions before they arrive at their posts of duty.
Our review of this training was limited because the FBI’s Inspection
Division had initiated an in-depth review of these areas. We noted
that over one-third of Legat staff did not meet the FBI’s foreign
language proficiency goals as stated in the Legal Attaché Manual. The
FBI’s Inspection Division’s analysis identified similar issues with
language training as well as other problems with pre-deployment
training.

      For security reasons and to ensure that FBI personnel do not
lose contact and familiarity with the changes in the FBI and the United
States, the Bureau places limits on the length of time staff are to
remain abroad. Our analysis indicates that some Legat staff have
remained abroad for long periods of time. The FBI has acknowledged
this as a problem and is taking steps to limit tours abroad by not
granting extensions in some cases. While we understand that
exceptions to tour of duty limits may need to be made in certain
circumstances, we believe these exceptions should be kept to a
minimum.




                             80
                  REDACTED AND UNCLASSIFIED
               REDACTED AND UNCLASSIFIED

Recommendations

  We recommend that the FBI:

5. Implement the FBI Inspection Division’s recommendations
   contained in their July 2003 Report: Legal Attaché Pre-
   Deployment Training and Evaluation of the Preparation of FBI
   Personnel for Overseas Assignment (see Appendix V), and
   provide us with details about the actions taken.

6. Adhere to its limits on overseas tours of duty and keep
   exceptions to these limits to a minimum.




                          81
               REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED



        STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the Legal Attaché
Program, we considered the FBI’s control structure over the Legal
Attaché program for the purpose of determining our audit procedures.
This evaluation was not made for the purpose of providing assurance
on the FBI’s management control structure as a whole. However, we
noted certain matters involving management controls that we
considered to be reportable conditions under Government Auditing
Standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operations of the
management control structure that, in our judgment, could adversely
affect the FBI’s ability to effectively administer the Legal Attaché
program. As discussed in the report, we identified the following
deficiencies: 1) the FBI has not fully addressed workload problems in
Legat Ottawa, and 2) the FBI lacks controls to ensure that staff
assigned overseas on temporary duty obtain required country
clearances and that Legat offices maintain complete records of these
clearances.

      Because we are not expressing an opinion on the FBI’s
management control structures as a whole, this statement is intended
for the information and use of the FBI in managing the Legal Attaché
Program.




                             82
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED


            STATEMENT ON COMPLIANCE WITH
                LAWS AND REGULATIONS

      We have audited the FBI’s management of the Legal Attaché
Program. In connection with the audit, as required by the standards,
we reviewed management processes and records to obtain reasonable
assurance about the FBI’s compliance with laws and regulations that, if
not complied with, in our judgment, could have a material effect on
FBI operations. Compliance with laws and regulations applicable to
the FBI’s management of the Legal Attaché Program is the
responsibility of the FBI’s management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulations against which
we conducted our tests are contained in the relevant portions of:

     •     Title 21, United States Code, Section 871;

     •     Title 28, United States Code, Section 533;

     •     National Security Determination Directive 38; and

     •     Executive Order 12333.

      Our audit did not identify areas where the FBI was not in
compliance with the laws and regulations referred to above. With
respect to areas that were not tested, nothing came to our attention
that caused us to believe that the FBI management was not in
compliance with the laws and regulations cited above.




                             83
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

                                                          APPENDIX I

   AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objectives of the audit were to determine: 1) the type of
activities performed by Legal Attaché offices; 2) the effectiveness of
Legal Attaché offices in establishing liaison with foreign law
enforcement agencies and coordinating activities with other law
enforcement and intelligence agencies stationed overseas; 3) the
criteria and process used by the FBI to determine the placement of
Legal Attaché offices, including oversight and management of
established offices; and 4) determine the processes used for selecting
and training FBI personnel for Legat positions.

Scope and Methodology

       We performed our audit in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish
the audit objectives. Generally, our audit emphasized Legat program
activities that occurred during fiscal years 2001 through 2003.
However, some of our tests required us to use data from prior fiscal
years.

      To accomplish our objectives, we conducted work at FBI
Headquarters, and interviewed various officials from: OIO’s
International Operations Section and Language Services Section;
Administrative Services Division; Criminal Investigation Division;
Counterterrorism Division; Finance Division; Inspection Division; Drug
Section; Security Division, and the Office of Professional
Responsibility. We also interviewed officials from other Department of
Justice components including the Justice Management Division, Drug
Enforcement Administration, and the Office of International Affairs. In
addition, we obtained documents from the Department of State’s
Office of the Inspector General.

      We conducted reviews of four Legal Attaché offices, which we
judgmentally selected. We included offices that had varied staffing
levels and workloads. In addition, we included offices that covered
one country as well as offices that covered multiple countries; English
speaking and non-English speaking locations; and offices in different
geographical areas. We reviewed the Legal Attaché Annual

                             84
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Accomplishment reports for 2001 and the latest FBI inspection reports
for all of the Legal Attaché offices, and took this information into
account when making our site selections.

       The Legat offices we selected and reviewed were located in:
Berlin, Germany; Ottawa, Canada; Pretoria, South Africa; and Tokyo,
Japan. We also conducted limited work in Cape Town, South Africa;
Toronto, Canada; and Cologne, Frankfurt, and Meckenheim, Germany.
While at these locations we interviewed Legal Attaché personnel,
United States Embassy and Consulate officials and staff, and selected
foreign liaison contacts of the Legal Attachés’ from various police and
intelligence agencies. See Appendix II for a listing of foreign agencies
contacted, and Appendix III for a listing of U.S. agency representatives
contacted abroad.

       We also performed various tests at the Legat offices. During our
fieldwork, we reviewed the files for a sample of judgmentally selected
leads and cases to determine what actions were taken by Legat
personnel in response to requests for assistance from other FBI
offices, and reviewed the timeliness of these actions in order to assist
us in addressing objectives 1 and 3. Further, we followed up on key
findings contained in the FBI Inspection Division’s reports for the four
offices to determine if corrective actions had been taken, and reviewed
other documents and records as needed.

      We also determined if individuals who had traveled for official
reasons on behalf of the FBI to selected locations in Canada and
Germany had country clearances. At our request the FBI’s Travel
Advance and Payment Unit, Finance Division, identified these
individuals using information from the FBI’s Financial Management
System. The printouts we received identified persons who had
traveled to selected Canadian destinations between October 1, 2001
and April 17, 2003, and between October 1, 2001 and June 4, 2003 for
the German locations.

      Furthermore, we reviewed FBI manuals, policies and procedures,
memorandum, correspondence, and electronic communications related
to the Legat Program. We also reviewed various records and
documents as needed, including: financial documents, Legal Attaché
Annual Accomplishment Reports, workload data, OPR case files,
vacancy packages, and records pertaining to the Legat staff’s tours of
duty and language proficiencies as well as reports provided to
Congress.

                             85
                  REDACTED AND UNCLASSIFIED
                  REDACTED AND UNCLASSIFIED

Prior Reviews

      The Office of Inspector General has not performed any prior
reviews of the FBI’s Legal Attaché Program. We also did not identify
any General Accounting Office reviews of the program. The FBI’s
Inspection Division conducts periodic reviews of individual Legal
Attaché offices and we reviewed these reports as part of our process
for selecting offices for review.




                             86
                  REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

                                                APPENDIX II

      LISTING OF FOREIGN AGENCIES CONTACTED

CANADA

Office of the Solicitor General

Royal Canadian Mounted Police (RCMP)
      International Operations Branch
      Financial Crimes Branch
      Immigration and Passport Branch

Canadian Security Intelligence Service (CSIS)
     Counter Intelligence Branch
     Counter Terrorism Branch
     Counter Proliferation Branch
     Foreign Liaison and Visits Branch

Ottawa Police Department

Toronto Police Service

GERMANY

Landeskriminalamt

Bundeskriminalamt

[CLASSIFIED INFORMATION REDACTED]

SOUTH AFRICA

South African Police Service
     Crime Intelligence Division
     Training Division
     Interpol Division
     Western Cape Province

National Prosecuting Authority
      Directorate of Special Operations




                              87
                   REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED

JAPAN

Ministry of Justice, International Affairs Division

[CLASSIFIED INFORMATION REDACTED]

National Police Agency (NPA)
      Second Organized Crime Control Division
      Second International Affairs Division
      Foreign Affairs Division, Security Bureau

Public Security Investigation Agency (PSIA), International Division

Tokyo Metropolitan Police, International Criminal Investigation Division




                              88
                   REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


                                                                           APPENDIX III

              LISTING OF U.S. AGENCIES CONTACTED AT
                  U.S. EMBASSIES AND CONSULATES
                                          Canada         Germany   Japan       South Africa
                                    Ottawa     Toronto    Berlin   Tokyo     Pretoria   Cape
                                                                                        Town
Department of State
U.S. Ambassador                       X                     X        X          X
Deputy Chief of Mission                                              X          X
Consulate General                                                                        X
Deputy Principal Officer                                                                 X
Consular Section                                            X        X
American Citizens Services
Consular Public Affairs                            X
Regional Security Officer             X            X        X        X          X        X
Narcotics Law Enforcement Affairs                                               X
Department of Justice
Alcohol, Tobacco, and Firearms        X
Drug Enforcement Administration       X                     X        X          X
U.S. Attorney’s Office                                                          X
                             [CLASSIFIED INFORMATION REDACTED]
Department of Homeland
Security
Immigration and Customs               X            X        X        X
             42
Enforcement
U.S. Secret Service                   X                     X
Transportation Security                                              X
Administration
Department of Defense
U.S. Air Force, Office of Special                           X        X
Investigations
U.S. Army, Military Liaison                                 X
U.S. Navy, Naval Criminal                                            X
Investigative Service




_____________
         42
           In Ottawa, we interviewed an ICE official from the former INS and another
from the former U.S. Customs Service. The ICE officials in the other three locations
were from the former U.S. Customs Service.




                                       89
                            REDACTED AND UNCLASSIFIED
           REDACTED AND UNCLASSIFIED

                                             APPENDIX IV

 FBI LEGAL ATTACHÉ OFFICES AND SUB-OFFICES
       FISCAL YEAR 2003 STAFFING LEVELS

OFFICE                    AGENTS   SUPPORT   TOTAL
Almaty, Kazakhstan           2        1         3
Amman, Jordan                2        1         3
Ankara, Turkey               2        1         3
Athens, Greece               3        2         5
Bangkok, Thailand            2        2         4
Beijing, China               2        1         3
Berlin, Germany              2        2         4
  Frankfurt, Germany         2        2         4
Bern, Switzerland            2        1         3
Bogotá, Colombia             4        2         6
Brasilia, Brazil             2        1         3
Bridgetown, Barbados         2        1         3
Brussels, Belgium            2        2         4
Bucharest, Romania           2        1         3
Buenos Aires, Argentina      2        1         3
Cairo, Egypt                 3        1         4
Canberra, Australia          2        2         4
Caracas, Venezuela           2        1         3
Copenhagen, Denmark          2        1         3
Hong Kong, SAR, China        2        1         3
Islamabad, Pakistan          4        2         6
Kiev, Ukraine                2        1         3
Lagos, Nigeria               2        1         3
London, England              6        5        11
Madrid, Spain                2        1         3
Manila, Philippines          3        2         5
Mexico City, Mexico          6        6        12
  Guadalajara, Mexico        2        1         3
  Monterrey, Mexico          1        0         1
Moscow, Russia               3        2         5
Nairobi, Kenya               2        1         3
New Delhi, India             2        1         3
Ottawa, Canada               5        4         9
  Vancouver, Canada          1        1         2
Panama City, Panama          2        1         3
Paris, France                3        2         5

                      90
           REDACTED AND UNCLASSIFIED
           REDACTED AND UNCLASSIFIED

OFFICE                   AGENTS   SUPPORT   TOTAL
Prague, Czech Republic      1        1        2
Pretoria, South Africa      2        1        3
Riyadh, Saudi Arabia        3        2        5
Rome, Italy                 4        3        7
Santiago, Chile             2        1        3
Santo Domingo,              2        1        3
Dominican Republic
Seoul, South Korea         1         1        2
Singapore, Singapore       2         1        3
Tallinn, Estonia           2         1        3
Tel Aviv, Israel           2         1        3
Tokyo, Japan               2         2        4
Vienna, Austria            3         1        4
 Budapest, Hungary         1         0        1
Warsaw, Poland             2         1        3
Totals                    119       75       194




                      91
           REDACTED AND UNCLASSIFIED
     REDACTED AND UNCLASSIFIED

                                 APPENDIX V

       RECOMMENDATIONS FROM THE
FBI INSPECTION DIVISON REPORT ON LEGAL
  ATTACHÉ PRE-DEPLOYMENT TRAINING




                92
     REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           93
REDACTED AND UNCLASSIFIED
         REDACTED AND UNCLASSIFIED

                                     APPENDIX VI

FEDERAL BUREAU OF INVESTIGATION RESPONSE




                    94
         REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           95
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           96
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           97
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           98
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           99
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           100
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           101
REDACTED AND UNCLASSIFIED
REDACTED AND UNCLASSIFIED




           102
REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

                                                        APPENDIX VII

OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
        ANALYSIS AND SUMMARY OF ACTIONS
          NECESSARY TO CLOSE THE REPORT

Recommendation Number:

1.   Resolved. The FBI agreed with our recommendation and
     reported that it intends to deploy to Legat Ottawa the positions
     that were approved for a three-person (two ALAT/one Office
     Assistant) sub-office in Toronto. The FBI anticipates that the
     personnel will be selected and deployed by mid summer 2004.
     Further, the Office of International Operations (OIO) believes
     that this infusion of personnel will significantly reduce, if not
     eliminate, the backlog of work in Legat Ottawa. In order to close
     this recommendation, please provide us with documentation
     showing that the personnel have been deployed to Legat Ottawa,
     along with quarterly workload reports for the 12 months
     following the completion of the deployment, and an analysis
     performed to determine if the staffing is adequate. In the
     interim, please keep us informed about the status of filling these
     positions.

2.   Resolved. The FBI responded that it agreed with our
     assessment of the policy underlying the need for all FBI travelers
     to request and obtain a country clearance in advance of foreign
     travel and emphasized the Legat’s role in this process. The OIO
     acknowledged that some FBI travelers to Canada had failed to
     request country clearances but indicated that the 135 instances
     cited by the OIG were overstated. Specifically, after our exit
     conference, the OIO said it contacted a random sample of 29
     employees who had submitted 42 of the 135 travel vouchers and
     determined that for 74 percent of these voucher submissions, a
     country clearance request had been submitted to Legat Ottawa.
     However, the response was silent regarding whether the country
     clearances for these 42 trips were actually approved and
     documented. As we pointed out in the report, the 135
     discrepancies were based on information provided by Legat
     Ottawa as well as OIO’s research of its records and ACS. At the
     time this research was initiated, we suggested that OIO contact
     individual employees to ascertain whether these employees
     could provide evidence of country clearance, but OIO declined to

                            103
                 REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

     do so. As we also stated in our report, the fact that OIO had to
     contact individuals, rather than obtaining this information from a
     centralized source, in our opinion, demonstrates a weakness in
     the internal control over country clearances for FBI employees
     traveling abroad. Moreover, after all of this research, the FBI
     still did not provide evidence of approved country clearances for
     the discrepancies we identified.

     The FBI also stated in its response that the centralization at FBI
     Headquarters of country clearance processing was attempted by
     the OIO in the year 2000 without success. Instead, OIO said
     that it will remind each Legat office of the importance of keeping
     accurate records and maintaining control files and will work with
     the Inspection Division to ensure these control files are reviewed
     for compliance during each Legat inspection. While we did not
     examine OIO’s unsuccessful centralization of the country
     clearance process, we are unconvinced that a centralized source
     for maintaining this information is not viable. Nevertheless,
     OIO’s proposed alternative approach seems reasonable;
     therefore, we consider this recommendation resolved.

     In order to close this recommendation, please provide us with
     the: 1) communication issued to all Legat offices reminding
     them of the importance of keeping accurate records and
     maintaining control files, and 2) country clearance
     communications for the 31 vouchers (74 percent of 42 vouchers
     sampled) that were subsequently located and provided to OIO by
     individuals.

3.   Resolved. As stated in Number 2, the Inspection Division plans
     to review country clearance files as part of its reviews of Legat
     offices. In addition, the Office of Inspections said it will review
     compliance with country clearance requirements by reviewing
     vouchers for foreign travel as part of the financial audit
     conducted during on-site inspections of domestic field offices. In
     order to close this recommendation please provide us with a
     copy of the guidance that will be provided to Inspectors for use
     during their reviews of country clearance requirements at Legat
     and domestic field offices. In addition, provide us with samples
     of Legat and field office inspection reports that demonstrate
     country clearance requirements were reviewed and the results
     obtained.



                            104
                 REDACTED AND UNCLASSIFIED
                 REDACTED AND UNCLASSIFIED

4.   Resolved. The FBI agreed with our recommendation and said
     that the Director recently approved “Border Liaison Office” status
     for the Buffalo field office, which permits FBI Special Agents
     assigned to the Buffalo field office to travel approximately 50
     miles into Canada for routine investigative matters. The FBI
     added that the Special Agent in Charge of the Buffalo field office
     provides summary information concerning the need for the travel
     to Legat Ottawa and that Legat Ottawa has confirmed that this is
     being done. The FBI’s response was silent, however, as to how
     other FBI field offices near the Canadian border coordinate their
     investigative activities with Legat Ottawa. This recommendation
     can be closed when the FBI provides: 1) an example of the
     summary information provided to Legat Ottawa by the Buffalo
     field office, 2) Legat Ottawa’s confirmation that Buffalo is
     adequately coordinating its activities, and 3) specific comments
     addressing how other border offices are coordinating their
     activities in Canada with Legat Ottawa.

5.   Resolved. In its response, the FBI stated that it agreed with
     the recommendations contained in the Inspection Division’s
     report and has initiated actions to implement the
     recommendations. The FBI, however, did not address one of the
     recommendations dealing with the need to study the feasibility
     of FBI employees completing a temporary duty assignment in a
     Legat office as a prerequisite for applying for a Legat vacancy.
     To close the OIG’s recommendation, the FBI needs to address
     this recommendation and provide us with documentation for the
     actions that have been taken on the others as shown in the
     following table.




                            105
                 REDACTED AND UNCLASSIFIED
             REDACTED AND UNCLASSIFIED


RECOMMENDATION              DOCUMENTATION
    NUMBER                     REQUESTED
       1       Copy of the comprehensive course
               evaluation instrument.
      2,3      Example of the electronic communication
               transmitted to substantive divisions at FBI
               Headquarters requesting specific
               comprehensive briefings for outgoing Legat
               personnel and evidence these briefings
               occurred.
       4       Progress reports about locating space at FBI
               Headquarters for an OIO classroom facility
               and simulated Legat office until this project
               is completed.
       5       Progress reports about providing additional
               training personnel to the Legat Pre-
               Deployment Training initiative.
       6       Documentation supporting that personnel
               selected for Legat vacancies with no prior
               Legat experience were provided with training
               in an established Legat office.
      7,8      Copy of the plan formulated to prioritize,
               advertise, and select Legat personnel for
               those offices with critical language needs,
               which is expected to be implemented after
               the FBI’s new management selection system
               becomes operational.
       9       Examples of completed evaluation forms
               used to provide feedback about the language
               training received and evidence that
               personnel receiving language training are
               tested.
     10,11     FY 2006 budget submission where an
               enhancement of resources to the Employee
               Assistance Unit is requested in order to
               implement a mental health program for
               Legat personnel.




                        106
             REDACTED AND UNCLASSIFIED
                REDACTED AND UNCLASSIFIED

6.   Resolved. In our report, we stated that 29 Legat staff had
     remained abroad for long periods, including eight employees
     who will have been overseas for more than 6 years if they
     complete their current tours of duty. We recommended that the
     FBI adhere to its tour of duty limits and keep exceptions to a
     minimum. In its response the FBI agreed with our
     recommendation and provided comments regarding its actions
     related to several requests for extensions. The FBI did not
     comment, however, regarding the eight employees we concluded
     would exceed tour-of-duty limits if they are permitted to
     complete their current tours. To close this recommendation,
     please provide us with documentation supporting the requests
     for extensions and denials as noted in the FBI’s response and
     specific comments and/or justification regarding the eight
     employees mentioned above.




                           107
                REDACTED AND UNCLASSIFIED
